No. 21In the

Supreme Court of the United States
JAMES TRACY,
Petitioner,
v.
FLORIDA ATLANTIC UNIVERSITY BOARD
OF TRUSTEES, A/K/A FLORIDA ATLANTIC
UNIVERSITY, et al.,
Respondents.

On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Eleventh Circuit

PETITION FOR A WRIT OF CERTIORARI
Enrique D. A rana
Counsel of Record
Rachel A. Oostendorp
Carlton Fields, P.A.
Two MiamiCentral
700 NW 1st Avenue, Suite 1200
Miami, Florida 33136
(305) 530-0055
earana@carltonfields.com
Counsel for Petitioner
306025

A
(800) 274-3321 • (800) 359-6859

i
QUESTION PRESENTED
Florida Atlantic University has a reporting policy
that requires its faculty and staff to disclose outside
professional activities to the university so that it may
determine whether those activities constitute a conflict of
interest. FAU used that policy as purported justification
to terminate Professor James Tracy for not “disclosing”
a notorious and widely criticized personal blog, which
questioned the veracity of the Sandy Hook massacre
narrative depicted by the government and the media.
FAU’s reporting policy incoherently defines professional
practice as both compensated and uncompensated activity,
does not make any reference to blogging or social media
use, and was applied to Professor Tracy even though the
policy had never been applied to require the reporting
of personal blogs by any of the dozens of other FAU
professors who maintain blogs or social media sites. The
question presented is:
Whether FAU’s conflict-of-interest reporting policy
is unconstitutionally vague, impermissibly chills speech,
and may be facially challenged because it grants the public
university unbridled discretion to engage in content-based
viewpoint discrimination against employees like Professor
Tracy?

ii
PARTIES TO THE PROCEEDING
Petitioner (plaintiff-appellant below) is James Tracy.
Respondents (defendants-appellees below) are Florida
Atlantic University Board of Trustees, a/k/a Florida
Atlantic University, Christopher Beetle, John W. Kelly,
Heather Coltman, Diane Alperin, Florida Education
Association, Robert Zoeller, Jr., and Michael Moats.

iii
RELATED PROCEEDINGS
Tracy v. Florida Atlantic University Board of
Trustees et al., No. 9:16-cv-80655, U.S. District
Court for the Southern District of Florida.
Judgment entered December 15, 2017.
Tracy v. Florida Atlantic University Board
of Trustees et al., No. 18-10173, U.S. Court of
Appeals for the Eleventh Circuit. Judgment
entered November 16, 2020, and become final
February 25, 2021.

iv
TABLE OF CONTENTS
Page
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDING . . . . . . . . . . . . . . . . ii
RELATED PROCEEDINGS  . . . . . . . . . . . . . . . . . . . .  iii
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . iv
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . .  viii
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . .  ix
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
CONSTITUTIONAL PROVISIONS INVOLVED . . . . 1
INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
STATEMENT  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
A. Professor Tracy and Florida Atlantic
University . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
B. Tracy’s Deeply Offensive Blogging On
The Sandy Hook Massacre . . . . . . . . . . . . . . . . . . 4
C. FAU Attempted To Censor Tracy For His
Blogging In 2013 . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

v
Table of Contents
Page
D. FAU’s Impermissibly Vague Conflict-OfInterest Policy Regarding Blogging . . . . . . . . . . 7
E. Other Faculty Members Protested The
Policy’s Vagueness  . . . . . . . . . . . . . . . . . . . . . . . . . 9
F.

FAU Deployed The Policy As A Pretext
For Firing Tracy  . . . . . . . . . . . . . . . . . . . . . . . . . 10

G. FAU Administrators Celebrated Tracy’s
Firing  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
H. Tracy’s Action Against FAU  . . . . . . . . . . . . . . . 12
1.

Trial court proceedings  . . . . . . . . . . . . . . . 12

2.

Appellate proceedings  . . . . . . . . . . . . . . . . 13

REASONS FOR GRANTING THE PETITION . . . . 14
I.

THE ELEVENTH CIRCUIT’S DECISION
C ON F L IC T S W I T H R EL E VA N T
VAGUENESS DECISIONS OF THIS
COURT BECAUSE FAU’S POLICY
FAILS TO PROVIDE EMPLOYEES
A REA SONA BLE OPPORT U NIT Y
T O K NOW W H AT S PEECH I S
REPORTABLE
AND
AN
I M PER M IS SI BLE CON FLIC T
OF I N T ER E S T, A N D P ER M I T S
DISCRIMINATORY ENFORCEMENT
TARGETING DISFAVORED SPEECH . . . . . 14

vi
Table of Contents
Page
A. The Policy Fails To Give Fair Notice
Regarding What Speech Activity
Must Be Reported And What Speech
Constitutes A Prohibited Conf lict
Of Interest . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
B. The Policy Permits Arbitrary And
Discriminatory Enforcement Against
Disfavored Speech  . . . . . . . . . . . . . . . . . . . . 19
C. The Vagueness Of The Policy Chills
Speech  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
II. T H E E L E V E N T H C I R C U I T ’ S
CONCLUSION THAT THE REPORTING
REQUIREMENT DOES NOT
IMPLICATE THE FIRST AMENDMENT
C ON F L IC T S W I T H R EL E VA N T
DECISIONS OF THIS COURT AND
OTHER CIRCUIT COURTS OF APPEAL,
WHICH HAVE HELD THAT SIMILAR
R EP ORT I NG R EQU I R EM EN T S
IMPERMISSIBLY CHILL SPEECH . . . . . . . 23

vii
Table of Contents
Page
III. THE ELEVENTH CIRCUIT’S DECISION
C ON F L IC T S W I T H R EL E VA N T
DECISIONS OF THIS COURT BECAUSE
IT PROHIBITS A FACIAL CHALLENGE
T O A P OLIC Y W H ICH GR A N T S
FAU U N BRI DLED DI S CR ET ION
TO ENGAGE IN CONTENT-BASED
V I E W P OI N T DI S C R I M I NAT ION
AGA INST EMPLOY EES SUCH A S
PROFESSOR TRACY  . . . . . . . . . . . . . . . . . . . . 25
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30

viii
TABLE OF APPENDICES
Page
APPENDIX A — OPINION OF THE UNITED
STAT ES COU RT OF A PPEA LS FOR
T H E ELE V EN T H CI RCU I T, FI LED
NOVEMBER 16, 2020 . . . . . . . . . . . . . . . . . . . . . . . . . 1a
APPENDIX B — ORDER OF THE UNITED
STATES DISTRICT COURT FOR THE
SOUTHERN DISTRICT OF FLORIDA, FILED
APRIL 24, 2018 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26a
APPENDIX C — OPINION OF THE UNITED
STATES DISTRICT COURT FOR THE
SOUTHERN DISTRICT OF FLORIDA, DATED
NOVEMBER 11, 2017 . . . . . . . . . . . . . . . . . . . . . . . . 72a
APPENDIX D — DENIAL OF REHEARING OF
THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT, FILED
FEBRUARY 25, 2021 . . . . . . . . . . . . . . . . . . . . . . . 109a

ix
TABLE OF CITED AUTHORITIES
Page
CASES
Baggett v. Bullitt,
377 U.S. 360 (1964)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
City of Chicago v. Morales,
527 U.S. 41 (1999)  . . . . . . . . . . . . . . . . . . . . . . . . .  16, 17
City of Lakewood v. Plain Dealer Pub. Co.,
486 U.S. 750 (1988) . . . . . . . . . . . . . . . . . . . . . 25, 26, 27
Doe v. Harris,
772 F.3d 563 (9th Cir. 2014) . . . . . . . . . . . . . . . . . . . . 24
Forsyth Cty., Ga. v. Nationalist Movement,
505 U.S. 123 (1992) . . . . . . . . . . . . . . . . . . . . . . . . . . . 26
Freedman v. State of Maryland,
380 U.S. 51 (1965) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28
Grayned v. City of Rockford,
408 U.S. 104 (1972)  . . . . . . . . . . . . . . . . . .  15, 16, 19, 22
Hurley v. Irish-American Gay Lesbian and
Bisexual Group of Boston,
515 U.S. 557 (1995)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Keyishian v. Bd. of Regents of Univ.
of State of N.Y.,
385 U.S. 589 (1967) . . . . . . . . . . . . . . . . . . . . . . . . 21, 29

x
Cited Authorities
Page
Kolender v. Lawson,
461 U.S. 352 (1983)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
Mahanoy Area Sch. Dist. v. B. L.,
141 S. Ct. 2038 (2021) . . . . . . . . . . . . . . . . . . . . . 3, 4, 29
Minnesota Citizens Concerned for Life, Inc. v.
Swanson,
692 F.3d 864 (8th Cir. 2012) . . . . . . . . . . . . . . . . . . . . 24
Reno v. Am. C.L. Union,
521 U.S. 844 (1997) . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
Shuttlesworth v. City of Birmingham, Ala.,
394 U.S. 147 (1969)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 28
Smith v. Goguen,
415 U.S. 566 (1974)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
Snyder v. Phelps,
562 U.S. 443 (2011)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Texas v. Johnson,
491 U.S. 414 (1989)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Thomas v. Chicago Park District,
534 U.S. 316 (2002) . . . . . . . . . . . . . . . . . . . . . . . . . . . 29
United States v. Playboy Entm’t Grp., Inc.,
529 U.S. 803 (2000) . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

xi
Cited Authorities
Page
STATUTES AND OTHER AUTHORITIES
U.S. Const., amend. I . . . . . . . . . . . . . . . . . . . . . . . . passim
28 U.S.C. § 1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

1
James Tracy respectfully petitions for a writ of
certiorari to review the judgment of the United States
Court of Appeals for the Eleventh Circuit.
OPINIONS BELOW
The opinion of the Eleventh Circuit is reported at
980 F.3d 799 and reproduced at App.1a-25a. The district
court’s opinion is available at 2017 WL 4962652 and
reproduced at App.72a-108a.
JURISDICTION
The Eleventh Circuit issued its judgment on November
16, 2020, which became final on February 25, 2021, when
the Eleventh Circuit denied the petition for rehearing and
rehearing en banc. App.109a-110a. On July 19, 2021, this
Court extended the deadline to file a certiorari petition
to 150 days in cases in which the order denying a timely
petition for rehearing was issued prior to that date. The
Court has jurisdiction under 28 U.S.C. §1254(1).
CONSTITUTIONAL PROVISIONS INVOLVED
The First Amendment to the United States Constitution
states:
Congress shall make no law...abridging the
freedom of speech, or of the press; or the
right of the people peaceably to assemble, and
to petition the government for a redress of
grievances.

2
INTRODUCTION
Chief Justice Roberts writing for eight justices of
the Supreme Court in Snyder v. Phelps, 562 U.S. 443
(2011), reaffirmed that: “‘If there is a bedrock principle
underlying the First Amendment, it is that the government
may not prohibit the expression of an idea simply because
society finds the idea itself offensive or disagreeable.’” He
held that deeply hurtful hate speech displayed on signs
picketing a military funeral were fully protected by the
First Amendment even though they stated abhorrent
messages in protest of LGBT individuals being allowed
in the military.
The Chief Justice’s quotation of this bedrock First
Amendment principle was from Justice Brennan’s opinion
for the Court striking down a state law prohibiting the
burning of the American flag in protest, Texas v. Johnson,
491 U.S. 414 (1989). The Chief Justice further elaborated
by observing “‘the point of all speech protection…is to
shield just those choices of content that in someone’s
eyes are misguided or even hurtful.’” Snyder, 562 U.S. at
458 (citing Hurley v. Irish-American Gay Lesbian and
Bisexual Group of Boston, 515 U.S. 557, 574 (1995)).
Notwithstanding this bedrock principle, Florida
Atlantic University, a public school, fired award-winning,
fully-tenured professor James Tracy in retaliation for
his notorious internet blogging questioning the veracity
of the Sandy Hook massacre narrative. The school,
the public, and the mass media found his posts deeply
offensive, hurtful, and hateful. FAU claims Professor
Tracy insubordinately refused to “disclose” the notorious
blogging on its conflict-of-interest form.

3
This termination violated the First Amendment for
two fundamental reasons. First, FAU’s conflict-of-interest
policy is unconstitutionally vague. FAU admitted to having
no policy at all on blogging, that the conflict-of-interest
forms and rules do not mention or allude to blogging, that
the constituent terms of the policy are undefined, and that
other faculty blog and use social media without disclosing
their activities. Administrators could not explain how
blogging on a controversial public matter posed a conflict
of interest with the University. The Policy did not give
Tracy reasonable notice that it required disclosure of his
blogging, and its vagueness enabled FAU to engage in
content-based viewpoint discrimination against him.
Second, the record evidence, as well as the face of the
policy, established that to begin to determine whether
blogging, fully protected speech activity, putatively
needed to be disclosed required administrators to review
its content. The vagueness of the policy, combined with
other record evidence, make it clear that FAU terminated
Tracy in retaliation for his offensive blogging, that it was
not insubordination, and the asserted insubordination
was a pretext for engaging in viewpoint discrimination.
This Court has recently reaffirmed the bedrock
principle that the First Amendment protects unpopular
and even hurtful speech within the context of public
schools, holding in Mahanoy Area School District v. B.L.,
141 S. Ct. 2038 (2021), that vulgar social media posts
by a student outside of school are entitled to full First
Amendment protection. The decision underscores that,
as “the nurseries of democracy,” public schools have “an
interest in protecting a student’s unpopular expression,
especially when the expression takes place off campus.”

4
Id. at 2046. This case presents the important question
whether public university professors and staff are entitled
to the same protections for their non-work-related speech
and expressive activity. In particular, whether FAU’s
conflict-of-interest reporting policy is unconstitutionally
vague, impermissibly chills speech, and may be facially
challenged because it grants the public university
unbridled discretion to engage in content-based viewpoint
discrimination against employees like Professor Tracy
STATEMENT
A. Professor Tracy and Florida Atlantic University
Florida Atlantic University (“FAU”) is a public
university. James Tracy was a distinguished tenured
faculty member in FAU’s School of Communications. He
taught journalism history, communication theory, and
courses on the media’s coverage of conspiracy theories.
Tracy received awards for his work, regularly earned
“excellent” reviews, and was a former president of the
faculty union. Tr.Vol.4 at 207; DE:447-14; Tr.Vol.2 at 112,
214.1
B. Tracy’s Deeply Offensive Blogging On The Sandy
Hook Massacre
In 2012, Tracy started a blog titled “Memory Hole:
Ref lections on Media and Politics” that offered his
1. Citations to the Appendix will be referred to as “App.X.”
Citations to documents in the district court’s record will be referred
to as “DE:X at Y.” The trial transcript will be referred to as “T.Vol.X
at Y,” where “X” represents the trial transcript volume number, and
“Y” represents the page number. The trial transcripts are located
in the district court records between DE:465 and DE:473.

5
personal opinions on politics and current events. Tracy
blogged on his personal time and made the blog available
for free to the public. T.Vol.2 at 57.; T.Vol.4 at 13. He was
not compensated for his blogging, but accepted donations
to help cover the server costs of running the website.
T.Vol.3 at 40-42. He received only $850 in donations prior
to his termination, all of which went towards maintaining
the blog. Id.
In December 2012, Tracy began blogging about the
Sandy Hook Elementary School massacre and his belief
that the mass shooting did not take place in the way
depicted by the government and the media and may have
been staged by the government to promote gun control.
His posts garnered national criticism and were widely
reviled by the public and media, including CNN. DE93 ¶¶
47-48; DE:249-30; T.Vol.3 at 66-67. The attention resulted
in numerous calls from current and prospective students,
donors, and the public at large for FAU to fire Tracy.
T.Vol.4 at 79-80; T.Vol.5 at 45-46.
C. FAU Attempted To Censor Tracy For His Blogging
In 2013
In January 2013, FAU officials met to discuss the
negative press surrounding Tracy’s blog and explore
terminating him. T.Vol.4 at 87-94; T.Vol.5 at 163, 174.
The group kept handwritten notes and agreed not to
exchange emails so their discussions would not enter the
public record. DE:250-10 at 1. Their notes recognized that
FAU was bound by “freedom of speech” and “acad[emic]
freedom,” but stated Tracy’s activities were “reckless +
irresponsible,” and that he was a “black eye on all faculty”
and a “1-man argument against tenure.” Id. at 3. The

6
notes also state “JT [is] not going to stop publishing,” and
the group was encouraged to “read his stuff” and “find
winning metaphors” to circumvent the “1st Amendment.”
Id. at 4.
FAU began to actively explore whether Tracy
committed a “violation” of the faculty collective bargaining
agreement by blogging about Sandy Hook. Id. at 3. The
notes specifically list “Article 19–conflict of interest” as
one of the grounds for “misconduct,” and an inadequate
“disclaimer” as another. Id. at 5. One FAU administrator
cited as potential grounds for discipline the disclaimer
and Tracy’s failure to fill out a conflict-of-interest form
disclosing his well-known blog to FAU so that they could
review whether it posed a conflict of interest. She directed
him to fill out the form. DE:447-1.
Tracy objected, citing his First Amendment rights
and his belief that his disclaimer, which stated the blog
reflected his views alone but did identify him as an FAU
professor, was sufficient and the personal blog did not need
to be reported. Id.; DE:250-29 at 2. FAU issued a notice
of discipline, citing only the insufficient disclaimer and
Tracy’s use of his title on the blog. FAU did not discipline
Tracy for failing to report the blog or refusing to submit
a form. DE:447-6. Tracy understood that to mean he was
not required to report his blog. T.Vol.2 at 123:8-18.
Around that time, educational and constitutional
rights groups sent letters to FAU condemning the
threatened discipline and supporting Tracy’s right to
maintain his blog, and his union helped defend against the
discipline. DE:250-29; T.Vol.2 at 112:3-9. FAU and Tracy
settled the matter in exchange for Tracy’s agreement to

7
stop using his FAU title in his blog and to use a disclaimer
drafted by FAU stating the content of the blog were the
views of Tracy and not FAU. DE:447-5. Tracy was the
only professor required to forgo his work title on a blog
or social media, and the only one required to use a custom
disclaimer. T.Vol.2 at 121-22. Tracy continued to blog in
the 2014-2015 academic year, and FAU did not request
any forms.
D. FAU’s Impermissibly Vague Conflict-Of-Interest
Policy Regarding Blogging
All Florida public universities must have a conflictof-interest policy. FAU’s conflict-of-interest Policy (the
“Policy”) consists of multiple documents and forms.
DE:248 ¶11, DE:250-18, 250-32, 250-37, 250-44. FAU
did not have a separate policy on blogging, podcasting,
or posting on social media. Blogging is not referenced or
defined in the documents and forms that comprise FAU’s
Policy. And to apply the Policy to a blog, administrators
would have to examine the contents of the blog.
The Policy instructs that all FAU employees must
report their conflicts of interest, conflicts of commitment,
and outside activities “prior to” engaging in the activity.
DE:250-33 at 7. It forbids employees from having an
interest that interferes with the “full and competent
performance of the employee’s duties.” DE:250-37.
“[A]n employee may participate in outside activities
and hold financial interests as long as these activities
and interests are reported and do not conflict with the
employee’s duties to the university.” DE:250-33 at 6-7.

8
Reporting is done on an annual basis on a form titled
“Report of Outside Employment of Professional Activities
for FAU Employees.” DE:250 -35. The form offers
check boxes for four types of activities: “Employment”;
“Professional Activity”; “Compensated Activity”; and
“Continuing Business Interest.” None is defined in the
form or elsewhere. Blogging is not included or suggested
by the form. No check box is offered for any type of
uncompensated activity. FAU employees who do not
engage in a conflict of interest activity are not required
to fill out a form, and compliance is based on the honor
system. Tr.Vol.5 at 202:3-4; Tr.Vol.4 at 160:25-161:1; T.Vol.6
at 88:16-17.
The Policy’s key terms are undefined. Employees
must provide a written description of “reportable
outside activity,” which is defined as “any compensated
or uncompensated professional practice, consulting,
teaching or research, which is not part of the employee’s
assigned duties.” DE:250-32. The Policy does not define
“professional practice,” nor does it include blogging on
public issues.
The Policy is supposed to prohibit “conflicts of interest,”
the definition of which includes “any conflict between the
private interests of the employee and the public interests
of the University, the Board of Trustees, or the State of
Florida” and “any activity which interferes with the full
performance of the employee’s professional or institutional
responsibilities or obligations.” DE:250-32. The Policy
does not define “public interests” or “private interests,”
or provide guidance as to what “full performance,” or
interference thereof, entails. FAU officials admitted the
only way to determine whether a blog, social media post,

9
book, or honorarium must be reported is by reviewing the
content of the speech to determine whether it conflicts
with FAU’s “interests.” 250-5 at 174-76; DE:250-11 at 14;
DE:447-13;T.Vol.4 at 207-10.
E. Other Faculty Members Protested The Policy’s
Vagueness
During a Senate Faculty meeting, several professors
voiced concern that FAU had threatened to discipline
professors involved in outside activity under the Policy, but
“no one knows” what outside activities need to be reported,
and “no one knows what outside activity the university is
targeting.” DE:250-47 at 4-6. One professor, who taught
at FAU for over 30 years, stated that “until there’s some
clarity about what outside activity has to be reported
I would recommend...that any new faculty member...do
nothing because any outside activity exposes you to risk...
and that risk includes discipline up to dismissal.” Id. at 5.
One of the FAU administrators who fired Tracy informed
the professors at the meeting that FAU was working on
revisions to clarify the Policy and forms. Id. at 24.
In 2015, FAU used the Policy as a pretext to target
another professor for writing a local newspaper oped “that the University did not like.” DE:246-14 at 18;
DE:250-47 at 14. FAU used the Policy to justify placing
a discipline letter in the author’s personnel file, which
could then be used as a means for further discipline or
termination under FAU’s progressive discipline system.
DE:246-14 at 19.

10
F. FAU Deployed The Policy As A Pretext For Firing
Tracy
After Tracy’s blog again made waves in September
2015, FAU continued to monitor the blog and internally
circulated articles from the media and complaints from
the public that were critical of Tracy and FAU for not
having fired him, compiling the negative news articles into
email reports and calling them the “JT media reports.”
DE:249-1; DE:249-27; DE:447-26; DE:447-31.
In October 2015, notwithstanding the confusion and
pending changes to the Policy, Tracy’s supervisor sent him
an email reminding him to fill out the forms for “outside
employment income.” DE:250-51. Between October and
November 2015, Tracy requested clarification about the
Policy, including that his blogging, which was separate
from his academic work, did not qualify as a reportable
outside activity, but his questions went unanswered.
DE:447-15; DE:447-20; DE:447-21; T.Vol.2 at 139-148;
T.Vol.6 at 14-17. Tracy raised concerns that he had not
received clarification on the “considerable confusion”
created by the Policy, and regarding the Policy’s breadth
and that it violated his First Amendment rights. DE:25057. Ultimately, FAU sent Tracy a notice of termination,
stating he had failed to submit “properly completed forms”
by the deadline, and refused to report activities that may
be in conflict, namely his “personal blog,” which “deprived”
FAU of the ability to “assess if a conflict exists for the blog
activity.” DE:249-7 at 2.
Over twenty (and likely countless more) FAU
professors maintain blogs or other social media sites.
None of these other professors have disclosed their blogs

11
or social media profiles to FAU under the Policy, and none
have been disciplined, much less fired, for failing to report
their expressive activity. DE250-14 ¶¶4-50. Tracy is the
only faculty member known to have ever been required
to report a personal blog or similar online speech as a
potential conflict of interest under the Policy. DE:250-14
¶65.
G. FAU Administrators Celebrated Tracy’s Firing
Two days after Tracy was terminated, another
professor released a statement to the New York Times
and Sun Sentinel regarding Tracy’s firing:
The decision by Florida Atlantic University
to fire James Tracy is not an assault on the
institution of tenure as some of his supporters
will claim.…Tracy’s “scholarship” makes a
mockery of what academics do. With every
blog, post, tweet and proclamation of false flags,
hoaxes, child actors and millionaire imposter
parents, pressures build in the public to strip
all faculty of the protections of tenure. His
termination holds both Tracy accountable for
his despicable behavior and reduces pressure
on elected officials to end tenure.
DE:249-8. Tracy’s boss, who was one of the FAU deans
who fired him, forwarded this statement to another FAU
dean and separately called the author her “hero.” Id.;
DE:249-9.
FAU administrators, including Tracy’s boss who
fired him, mocked Tracy and joked about his termination.

12
DE:249-12; DE:249-14; DE:249-15; DE:447-27; DE:44728; DE:447-29. In one email with the subject “check out
today’s memory hole blog,” the administrator called
Tracy a “Nut job.” DE:249-14. On Tracy’s last day, the
administrator sent her colleague an email asking: “How
is your employee?”—referring to Tracy’s wife, a librarian
at FAU—“Mine is packing up his office today.” DE:24913. She sent another colleague an image of a cocktail.
DE:447-46.
H. Tracy’s Action Against FAU
Tracy filed this action pursuant to 42 U.S.C. §1983
against FAU and certain FAU administrators alleging
First Amendment retaliation, facial and as-applied
challenges to the Policy, and declaratory and injunctive
relief. Tracy alleged FAU retaliated against him because
administrators disapproved of the viewpoints he expressed
about Sandy Hook and sought to have the Policy declared
unlawful and to be reinstated.
1.

Trial court proceedings

On cross-motions for summary judgment, the district
court granted summary judgment in favor of FAU on
Tracy’s claims challenging the Policy, concluding that
Tracy’s First Amendment claims other than retaliation
needed to be grieved pursuant to a collective bargaining
agreement. App.72a-108a.
The First Amendment retaliation claim proceeded
to a nine-day jury trial. The verdict form contained two
questions: (1) whether Tracy’s speech was a motivating
factor in his termination; and (2) if so, whether FAU would

13
have fired him absent the controversial speech. Despite
evidence that FAU officials closely monitored Tracy’s blog,
brainstormed ways to circumvent the First Amendment,
fired him for failing to report a blog that was well known
to FAU and thus effectively reported to the University, and
celebrated his termination, the jury concluded that Tracy’s
speech was not a motivating factor in his termination and
never reached the second question. The district court
entered a final judgment and denied Tracy’s post-trial
motions. App.26a-71a; DE:484.
2.

Appellate proceedings

Tracy appealed, arguing (among other things) that
the Policy violated the First Amendment because it
was impermissibly vague, could not be enforced without
reference to the content of the speech to determine
whether it contradicts FAU’s undefined “public interests,”
and granted unbridled discretion to FAU that resulted in
viewpoint discrimination against Tracy. Init.Br. 31-42.
Tracy also argued that no reasonable jury could have
determined that Tracy’s speech was not a motivating
factor in his termination. Id. at 50-57.
A panel of the United States Court of Appeals for the
Eleventh Circuit rejected Tracy’s arguments and affirmed
the judgment against him. Unlike the district court,
the Eleventh Circuit addressed Tracy’s constitutional
challenges to the Policy on the merits. App.6a-10a. The
Court concluded that Tracy’s vagueness challenge failed
because the Policy’s requirement that employees report
any “professional practice” gives employees fair notice as
that term’s ordinary meaning is “readily understandable,
and its scope is limited” and because the reporting

14
requirement “clearly applied” to Tracy’s blogging
activity. App.10a-13a. The Court next disregarded Tracy’s
argument that the Policy is overbroad and constitutes
a content-based restriction on speech, suggesting that
the reporting requirement does not implicate the First
Amendment because it neither restricts nor punishes any
speech. App.13a-14a. Finally, the Eleventh Circuit held
that Tracy cannot facially challenge the Policy’s conflictof-interest provision as giving FAU officials unbridled
discretion to demand speech for analysis and approval
before publication based on its content. App.14a-17a. The
Court also affirmed the jury’s verdict that Tracy’s speech
was not a motivating factor in his firing. App.18a-22a.
Tracy petitioned for panel rehearing and rehearing
en banc. The petition was denied on February 25, 2021.
App.109a-110a. This petition for certiorari followed.
REASONS FOR GRANTING THE PETITION
I.

T H E ELEV EN T H CI RCU I T ’ S DECISION
CONFLICTS WITH RELEVANT VAGUENESS
DECISIONS OF THIS COURT BECAUSE FAU’S
POLICY FAILS TO PROVIDE EMPLOYEES
A REA SONA BLE OPPORT U N I T Y T O
K NOW WH AT SPEECH IS REPORTA BLE
AND AN IMPERMISSIBLE CONFLICT OF
INTEREST, AND PERMITS DISCRIMINATORY
ENFORCEMENT TARGETING DISFAVORED
SPEECH

The Policy requires that employees provide to FAU
a description of “reportable outside activity,” which
purportedly means “any compensated or uncompensated

15
professional practice, consulting, teaching or research,
which is not part of the employee’s assigned duties.”
DE:250-32. It also prohibits “conf licts of interest,”
including “any conflict between the private interests of
the employee and the public interests” of FAU and “any
activity which interferes with the full performance of the
employee’s professional or institutional responsibilities
or obligations.” Id. The Eleventh Circuit held that the
Policy was neither vague on its face because the undefined
term “professional practice” should be given its ordinary
meaning, nor as applied to Tracy because the Policy’s
reporting requirement “clearly applied” to his blog.
App.10a-13a.
The Eleventh Circuit’s decision conflicts with this
Court’s well-settled precedent regarding the doctrine of
vagueness, particularly where, as here, the vagueness
of a regulation operates to interfere with the exercise of
First Amendment freedoms. Vague laws and regulations
“offend several important values.” Grayned v. City of
Rockford, 408 U.S. 104, 108 (1972). First, laws must
“give the person of ordinary intelligence a reasonable
opportunity to know what is prohibited, so that he may
act accordingly. Vague laws may trap the innocent by
not providing fair warning.” Id. Second, “laws must
provide explicit standards for those who apply them” to
prevent arbitrary and discriminatory enforcement. Id. “A
vague law impermissibly delegates basic policy matters
to policemen, judges, and juries for resolution on an ad
hoc and subjective basis, with the attendant dangers of
arbitrary and discriminatory application.” Id. at 108–09.
Third, “where a vague statute ‘abut(s) upon sensitive areas
of basic First Amendment freedoms,’ it ‘operates to inhibit
the exercise of (those) freedoms.’ Uncertain meanings

16
inevitably lead citizens to ‘steer far wider of the unlawful
zone’...than if the boundaries of the forbidden areas were
clearly marked.” Id. at 109 (citation omitted). The Policy
is unconstitutionally vague for all three reasons.
A.

The Policy Fails To Give Fair Notice Regarding
What Speech Activity Must Be Reported And
What Speech Constitutes A Prohibited Conflict
Of Interest

First, the Policy is unconstitutionally vague because
it does not give fair notice to employees regarding
what speech activity must be reported and what speech
constitutes a prohibited conflict of interest. The Eleventh
Circuit held that the term “professional practice” in the
definition of “reportable outside activity” should be given
its “readily understandable” ordinary meaning, which is
“engaging in an activity characteristic of one’s profession.”
App. 11a-12a. But this ruling is in conflict this Court’s
decisions which hold that even where a law’s terms may
have a common meaning or usage, the law may nonetheless
fail to provide fair notice because those terms are employed
in a manner that creates uncertainty. In City of Chicago
v. Morales, for example, this Court held that Chicago’s
Gang Congregation Ordinance, which prohibited “criminal
street gang members” from “loitering” with one another
or other persons in any public place, was unconstitutionally
vague on its face because, although the term “loitering”
has a common and accepted meaning, the ordinance’s
definition of that term as “to remain in any one place with
no apparent purpose” did not. 527 U.S. 41, 56–57 (1999).
Thus, the “vagueness that doom[ed] th[at] ordinance [was]
not the product of uncertainty about the normal meaning
of ‘loitering,’ but rather about what loitering is covered by
the ordinance and what is not.” Id.

17
As in Morales, the Policy does not apply the term
“professional practice” according to common usage
because common usage would be job-related activity. By
defining “professional practice” to include uncompensated
activity, FAU has rendered the term “professional
practice” incomprehensible. Moreover, the form on which
employees must report their outside activities itself
renders the term “professional practice” even less clear.
It only contains a space for a “Description of Employment
Activity,” and does not include any space to fill out nonemployment activity. FAU admitted that some employees
refer to the Policy as the “Outside Employment” form,
not realizing that it also encompasses uncompensated
activities. DE:250-14 ¶58; DE:447-21.
The Eleventh Circuit’s decision reasoned that the
fact that the term “professional practice” “appears in a
list of activities typically engaged in by academics, such
as ‘consulting,’ ‘teaching,’ and ‘research,’” confirms it is
limited to “activities that are ‘professional’ in nature.”
App. 12a. But the inclusion of those additional terms
creates even further confusion. The conclusion that
“professional practice” means something professional in
nature akin to consulting, teaching, or research overlooks
the fundamental ambiguity about whether speech activity
such as uncompensated personal blogging, social media
posting, or even article and op-ed writing would be
encompassed within that term. It is hardly apparent that
these uncompensated forms of communication, which
are ubiquitous today and may be undertaken by anyone
at their leisure and without any professional training or
education, would qualify as “professional practice.”

18
The vagueness of the Policy is even more apparent
when applied to expressive hobbies such as Tracy’s
personal blogging. The Eleventh Circuit concluded that
the Policy’s “reporting requirement clearly applied to
[Tracy’s] own particular unreported activity” because
his “blog closely mirrored what he did professionally” and
therefore “clearly constituted a ‘professional practice.’”
App.13a. In other words, the Eleventh Circuit held
that Tracy’s uncompensated personal blogging was a
“professional practice” because the subject matter of his
blog—his own personally-held views on politics, current
events, and conspiracy theories—covered subject matter
similar to some of the coursework—conspiracy theories
in culture and mass media—that he taught at FAU.
But the relevant question for reporting under the
Policy is whether Tracy was engaging in professional
activities (like consulting, teaching, research) similar to
his employment at FAU, not whether he was blogging
about a similar subject matter. Taken to its logical
conclusion, this would mean a music teacher must report
to FAU that she also plays in a garage band or a Spanish
teacher must report that he meets with friends to speak
Spanish. In fact, FAU conceded in 2013 that this was a
personal blog separate from Tracy’s academic work when
an FAU official admitted in her notes that the blog “is
not academic” and “hobby is v. diff. from work at a univ.”
DE:250-10 at 4. And the disclaimer that FAU required
Tracy to add to his blog in 2013 expressly clarified that the
blogging was not an activity he was doing as a professor
at FAU—i.e., as part of his “professional practice.”
The Policy is also vague as to what activity constitutes
a prohibited conflict with the school’s “public interests” or
the “full performance” of any employee’s responsibilities.

19
The Policy does not define the “public interests” of FAU,
the Board of Trustees, or the State of Florida, nor does it
place any limits on what “public interests” include. Thus,
professors are left guessing how to avoid violating this
rule. Moreover, it is entirely implausible that free speech
blogging on public affairs would be a conflict of interest to
an institution that expressly promotes academic freedom.
Nor does the Policy provide parameters for how
to measure “full performance” or “interference” with
teaching. It does not specify how many hours professors
should be working, so it is difficult to determine how timeconsuming an activity must be to constitute interference.
Read literally, any activity (including hobbies, having a
family, community involvement) can interfere with the
full performance of a professor’s activities. Indeed, the
forms reflect Tracy spent only a few hours per week of
personal time engaged in outside activities. DE:249-6.
He blogged about 7 hours per week, while holding normal
office hours of 20-25 hours per week. DE:243-5 at 16768, 187-88; T.Vol.3 at 200. This is a textbook example of
impermissible vagueness because it fails to “provide...the
person of ordinary intelligence a reasonable opportunity
to know what is prohibited.” Grayned, 408 U.S. at 108.
B. T h e Po l i c y Pe r m i t s A r b i t r a r y A n d
D i s c r i m i n at or y En for c ement A g a i n s t
Disfavored Speech
Second, the Policy is unconstitutionally vague because
its ambiguities allow it to be discriminatorily applied and
enforced by FAU administrators against speech activity
with which they disagreed. Even though this Court has
recognized “that the more important aspect of vagueness
doctrine ‘is not actual notice but the other principal element

20
of the doctrine—the requirement that the legislature
establish minimal guidelines to govern law enforcement,’”
the Eleventh Circuit did not even address the issue in its
vagueness analysis. Kolender v. Lawson, 461 U.S. 352,
357–58 (1983). Because “compensated or uncompensated
professional practice” could encompass nearly any activity
and there is no standard for determining whether an
expressive activity constitutes a conflict of interest with
FAU’s “public interests” or interferes with an employee’s
“full performance,” the Policy “vests virtually complete
discretion in the hands of” FAU officials to determine
whether speech activity must be reported and if it is a
prohibited conflict of interest. Id. at 358.
This danger is not merely hypothetical, as these
ambiguities allowed the Policy to be employed by FAU
officials as a pretext to fire Tracy because they objected
to the content of his personal blog. FAU disagreed with
Tracy’s provocative viewpoints, had been monitoring
his blog, and had looked for a way to terminate him
as a result of his speech since 2013. It is clear that the
reporting requirement was discriminatorily applied to
Tracy because he was singled out for failing to report his
blog, even though there was no policy on blogging and at
least twenty other professors who maintained blogs and
social media at the time of Tracy’s termination, as well
as three faculty who published an op-ed with a viewpoint
on Sandy Hook that FAU supported, were not required to
report their speech activities, much less fired for failing to
do so. DE:250-14 ¶¶ 4-50; T.Vol.4 at 126-30. FAU’s claim
that Tracy’s failure to report his personal blog deprived
FAU of the ability to “assess if a conflict exists for blog
activity” was plainly pretextual because FAU was aware
of, and indeed closely monitored, the public blog and could

21
review it any time to assess if a conflict existed. DE:469
at 16-17 (testimony from FAU official that she was waiting
for Tracy to list the blog on his forms).
C.

The Vagueness Of The Policy Chills Speech

Finally, the vagueness of the Policy is particularly
dangerous because it operates to inhibit the fundamental
First Amendment freedom of public university employees
to speak on issues of public concern and engage in other
expressive conduct. It is entirely unclear, for example,
whether the Policy applies to speech activity such as
uncompensated personal blogging, social media posting, or
even article and op-ed writing. “Where a statute’s literal
scope…is capable of reaching expression sheltered by the
First Amendment, the doctrine demands a greater degree
of specificity than in other contexts.” Smith v. Goguen, 415
U.S. 566, 573 (1974); see also Keyishian v. Bd. of Regents
of Univ. of State of N.Y., 385 U.S. 589, 603–04 (1967)
(“[P]recision of regulation must be the touchstone in an
area so closely touching our most precious freedoms….The
danger of that chilling effect…must be guarded against
by sensitive tools which clearly inform teachers what is
being proscribed.”). Moreover, “[t]he vigilant protection
of constitutional freedoms is nowhere more vital than in
the community of American schools.” Keyishian, 385 U.S.
at 603; Mahanoy Area Sch. Dist. v. B. L., 141 S. Ct. 2038,
2046 (2021) (“America’s public schools are the nurseries
of democracy. Our representative democracy only works
if we protect the ‘marketplace of ideas.’...That protection
must include the protection of unpopular ideas, for popular
ideas have less need for protection.”).

22
Vague restrictions, like the Policy, that infringe
upon First Amendment rights are especially concerning
because of their chilling effect on speech, leading
individuals to “steer far wider of the unlawful zone...
than if the boundaries of the forbidden areas were clearly
marked.” Grayned, 408 U.S. at 109; see also Reno v. Am.
C.L. Union, 521 U.S. 844, 871–72 (1997) (“[T]he CDA is a
content-based regulation of speech. The vagueness of such
a regulation raises special First Amendment concerns
because of its obvious chilling effect on free speech.”);
Baggett v. Bullitt, 377 U.S. 360, 372 (1964) (“[T]he vice of
unconstitutional vagueness is further aggravated where,
as here, the statute in question operates to inhibit the
exercise of individual freedoms affirmatively protected
by the Constitution....The uncertain meanings of the oaths
require the oath-taker—teachers and public servants—
to ‘steer far wider of the unlawful zone’...than if the
boundaries of the forbidden areas were clearly marked.”).
The Policy fails to give fair warning regarding what
expressive activities must be reported, when they must
be reported, which activities constitute a prohibited
conflict of interest, and what sanctions will be imposed if
violated. The disturbing result is that faculty and staff of
a public academic institution self-censor or entirely avoid
private speech activity and expressive hobbies, including
uncompensated personal blogging, social media posting,
and penning op-eds on politics and current events, in
order to avoid unknown potential repercussions, which
could include termination. See DE:250-47 at 5 (tenured
professor stating “until there’s some clarity about what
outside activity has to be reported I would recommend...
that any new faculty member...do nothing because any
outside activity exposes you to risk...and that risk includes
discipline up to dismissal”). In other words, the public

23
university’s firing of a tenured professor for failing to
report his free speech blogging on public affairs under a
vague conflict-of-interest policy has had the effect of not
just chilling, but freezing, the expression of its employees.
II. THE ELEVENTH CIRCUIT’S CONCLUSION
THAT THE REPORTING REQUIREMENT DOES
NOT IMPLICATE THE FIRST AMENDMENT
CONFLICTS WITH RELEVANT DECISIONS OF
THIS COURT AND OTHER CIRCUIT COURTS
OF A PPEA L , WHICH HAVE HELD THAT
SIMIL A R REPORTING REQUIREMEN TS
IMPERMISSIBLY CHILL SPEECH
The Eleventh Circuit rejected Tracy’s other First
Amendment arguments regarding the Policy’s reporting
requirement, including that it is overbroad and constitutes
a content- and viewpoint-based restriction on speech,
because “the reporting requirement does not punish or
restrict any speech; it requires only that faculty report
certain types of speech activities.” App.13a-14a (emphasis
in original). The Eleventh Circuit’s conclusion that the
reporting requirement does not implicate the First
Amendment because it is not a direct restriction on speech
is contrary to well-settled principles of this Court. See
United States v. Playboy Entm’t Grp., Inc., 529 U.S. 803,
812 (2000) (“It is of no moment that the statute does not
impose a complete prohibition. The distinction between
laws burdening and laws banning speech is but a matter
of degree. The Government’s content-based burdens must
satisfy the same rigorous scrutiny as its content-based
bans.”).

24
Moreover, the Eleventh Circuit’s conclusion, which
allows FAU administrators to demand that speech
be reported for analysis under impermissibly vague
standards, conflicts with other circuit precedent holding
that reporting requirements, under similar conditions, can
have a chilling effect on speech. For example, in Doe v.
Harris, the Ninth Circuit held that a reporting provision
of a sex offender registration statute violated the First
Amendment. 772 F.3d 563 (9th Cir. 2014). The provision
required persons covered by the statute to provide
information including a list of internet identifiers and
service providers used by that person. Any additions or
changes were to be reported to law enforcement within 24
hours. Id. at 568–69. The Court first held that the statute
implicated the First Amendment because, even though
it did not on its face prohibit speech, “a law may burden
speech—and thereby regulate it—even if it stops short of
prohibiting it.” Id. at 572. The Court then concluded that
the statute impermissibly chills protected speech because
it did not make clear what sex offenders are required to
report. Id. at 578–79 (“the ambiguities [regarding the
meanings of internet identifier and service provider] may
lead registered sex offenders to…underuse the Internet
to avoid the difficult questions in understanding what,
precisely, they must report”); cf. Minnesota Citizens
Concerned for Life, Inc. v. Swanson, 692 F.3d 864, 874
(8th Cir. 2012) (invalidating reporting requirement in
campaign contribution disclosure laws where the burdens
imposed by the law chilled political speech).
Here too the reporting requirement—which contains
undefined terms and does not address speech such as
blogging at all, thus rendering entirely ambiguous what
activity must be reported—creates a content-based

25
burden on expression that impermissibly chills speech.
Indeed, Tracy presented evidence that faculty and staff,
including tenured professors, were so confused about what
outside activity must be reported that they refrained from
participating in such activities lest they be fired. DE:25047 at 5. Review is required because the Eleventh Circuit’s
ruling opens the door for public educational institutions to
impermissibly chill the speech and expressive activities
of its faculty and employees.
III. T H E ELEV EN T H CI RCU I T ’ S DECISION
CONFLICTS WITH RELEVANT DECISIONS
OF THIS COURT BECAUSE IT PROHIBITS A
FACIAL CHALLENGE TO A POLICY WHICH
GRANTS FAU UNBRIDLED DISCRETION TO
ENGAGE IN CONTENT-BASED VIEWPOINT
DISCRIMINATION AGAINST EMPLOYEES
SUCH AS PROFESSOR TRACY
The Policy’s conf lict-of-interest provision gives
FAU officials unbridled discretion to target speech they
believe conflicts with FAU’s undefined “public interest”
and allows administrators to demand speech for analysis
and approval in advance of publication, thus operating
as a prior restraint. It is well settled that “in the area
of free expression a licensing statute placing unbridled
discretion in the hands of a government official or agency
constitutes a prior restraint and may result in censorship.”
City of Lakewood v. Plain Dealer Pub. Co., 486 U.S. 750,
757 (1988).
“‘[A] law subjecting the exercise of First Amendment
freedoms to the prior restraint of a license’ must contain
‘narrow, objective, and definite standards to guide the

26
licensing authority.’” Forsyth Cty., Ga. v. Nationalist
Movement, 505 U.S. 123, 131 (1992) (citation omitted).
This means that if a licensing scheme “‘involves appraisal
of facts, the exercise of judgment, and the formation
of an opinion’...by the licensing authority, ‘the danger
of censorship and abridgment of our precious First
Amendment freedoms is too great’ to be permitted.” Id.
(citation omitted).
The Policy vests complete discretion in university
administrators to approve or disapprove (akin to licensing)
the off-campus speech or expressive activity of an
employee based on whether it constitutes a prohibited
conflict of interest with FAU’s “public interests” or
“interference” with the “full performance” of an employee’s
responsibilities, neither of which are defined or otherwise
limited. DE:250-33, -34, -50. And the administrator’s
review of the speech is a content-based restraint because
it draws distinctions based on the message the speaker
conveys; indeed, FAU officials admitted the only way to
determine whether a speech activity is prohibited is by
reviewing the content of the speech to determine if it
conflicts with FAU’s “interests.” DE:250-5 at 174:1-176:4;
250-11 at 14; DE447-13; T.Vol.4 at 207-12. By failing to
provide sufficient guidance, the Policy gives FAU officials
unfettered discretion, permitting it to be used by officials
to target and silence speech with which they disagree.
See Forsyth, 505 U.S. at 132–33 (invalidating ordinance
requiring permit for parades and demonstrations where
there were no articulated standards to determine permit
fee, administrator based the fee on his own judgment of
what would be reasonable, and ordinance often required
that the fee be based on the content of the speech);
Lakewood, 486 U.S. at 772 (holding ordinance gave

27
unconstitutional unfettered discretion to mayor to deny or
limit newsrack permit application based on “any additional
terms” he deemed “necessary and reasonable”).
The Eleventh Circuit held that Tracy cannot maintain
a challenge on this basis because he did not establish
a pattern of unlawful favoritism signaling an abuse of
such discretion. Specifically, the court concluded that
Tracy “has, at most, shown a ‘hypothetical constitutional
violation[] in the abstract’” because he purportedly had
not shown instances where FAU determined an outside
speech activity constituted a prohibited conflict of interest,
nor had he reported his own blog to test the breadth of
FAU’s Policy. App.15a-17a.
The Eleventh Circuit’s ruling that Tracy may not
raise a facial claim of unbridled discretion conflicts with
this Court’s precedent which has “long held that when
a licensing statute allegedly vests unbridled discretion
in a government official over whether to permit or deny
expressive activity, one who is subject to the law may
challenge it facially without the necessity of first applying
for, and being denied, a license.” Lakewood, 486 U.S. at
755–56 (permitting facial challenge by newspaper that
elected not to seek permit under newsrack permitting
ordinance). This is so because unbridled licensing schemes
present a risk of “self-censorship by speakers in order to
avoid being denied a license to speak; and the difficulty of
effectively detecting, reviewing, and correcting contentbased censorship ‘as applied’ without standards by which
to measure the licensor’s action.” Id. at 759.
Indeed, it is well established that “a person faced with
such an unconstitutional licensing law may ignore it and

28
engage with impunity in the exercise of the right of free
expression for which the law purports to require a license.”
Shuttlesworth v. City of Birmingham, Ala., 394 U.S. 147,
151 (1969). “The Constitution can hardly be thought to deny
to one subjected to the restraints of such an ordinance
the right to attack its constitutionality, because he has
not yielded to its demands.” Id. In Freedman v. State of
Maryland, for example, a plaintiff who was convicted for
exhibiting a film without first submitting it for approval
challenged the statute requiring that films obtain a license
prior to release and giving the licensing board exclusive
discretion to deny a license if the film was obscene. 380
U.S. 51 (1965). This Court held that Freedman’s facial
challenge was viable even though he had not submitted
the film for review because he had standing to challenge
the statute “on the ground that it delegates overly broad
licensing discretion to an administrative office, whether or
not his conduct could be proscribed by a properly drawn
statute, and whether or not he applied for a license.” Id.
at 56.
Like the theater owner in Freedman, Tracy feared
that FAU wanted to use the Policy to censor him and his
controversial and publicly reviled opinions. T.Vol.3 at 146.
Indeed, the administrator who fired Tracy admitted as
much when she testified that when Tracy failed to report
his blog, FAU was robbed of the opportunity to approve
or disapprove of his blogging. T.Vol.5 at 16:22-17:3 (“In
2013, you wanted him to report his blogging to you so you
could have the right to approve or disapprove that activity,
didn’t you? A. Correct. Q. You wanted the same right in
2015, to approve or disapprove the activity? A. Correct.”).
Contrary to the Eleventh Circuit’s ruling, Tracy was not
required to submit his personal blog as a test case under a

29
policy that permitted officials to suppress such disfavored
speech. 2
The content-based prior restraint imposed by the
Policy in a manner that permits public university officials
to engage in viewpoint discrimination against the private
speech of faculty and staff is particularly egregious given
that a university should serve as an incubator of ideas
devoted to academic freedom and speech. Keyishian,
385 U.S. at 603; Mahanoy, 141 S. Ct. at 2046. This Court
should review the Eleventh Circuit’s validation of a public
university policy which suppressess off-campus speech by
professors and other employees.

2. The Eleventh Circuit’s reliance upon Thomas v. Chicago
Park District, 534 U.S. 316 (2002), was misplaced. In Thomas,
this Court upheld a scheme for obtaining a permit to hold a public
event in the park, holding that because the licensing scheme was
“not a subject-matter censorship but a content-neutral time, place,
and manner regulation of the use of a public forum,” additional
safeguards curbing park district discretion were not required, and
any potential for abuse “must be dealt with if and when a pattern
of unlawful favoritism appears[.]” Id. at 316–17. Because the Policy
is not a content-neutral time, place, and manner regulation, but a
content-based prior restraint on speech and expressive activity, the
principle set forth in Thomas is inapposite.

30
CONCLUSION
For all the reasons stated herein, the petition for writ
of certiorari should be granted.
				Respectfully submitted,
Enrique D. A rana
Counsel of Record
Rachel A. Oostendorp
Carlton Fields, P.A.
Two MiamiCentral
700 NW 1st Avenue, Suite 1200
Miami, Florida 33136
(305) 530-0055
earana@carltonfields.com
Counsel for Petitioner
July 26, 2021

APPENDIX

1a
Appendix A — Appendix
opinionAof the united
states court of appeals FOR THE
ELEVENTH CIRCUIT, FILED
NOVEMBER 16, 2020
IN THE United States Court of Appeals
for the Eleventh Circuit
No. 18-10173
Docket No. 9:16-cv-80655-RLR
JAMES TRACY,
Plaintiff-Appellant,
versus
FLORIDA ATLANTIC UNIVERSITY BOARD OF
TRUSTEES, CHRISTOPHER BEETLE, JOHN W.
KELLY, HEATHER COLTMAN, DIANE ALPERIN,
FLORIDA EDUCATION ASSOCIATION, ROBERT
ZOELLER, JR., MICHAEL MOATS,
Defendants-Appellees,
ANTHONY BARBAR, et al.,
Defendants.
Appeal from the United States District Court
for the Southern District of Florida. D.C.
November 16, 2020, Decided

2a
Appendix A
Before MARCUS, JULIE CARNES, and KELLY,*
Circuit Judges.
JULIE CARNES:
Following the December 14, 2012 Sandy Hook
Elementary School shooting in Newtown, Connecticut,
where twenty children and six adults lost their lives,
Plaintiff James Tracy attracted national news media
attention for publicly questioning whether the massacre
had in fact occurred. At the time, Plaintiff held a tenured
position in the School of Communication and Multimedia
Studies at Florida Atlantic University and maintained
a personal online blog, called the “Memory Hole Blog,”
where he criticized the media and explored conspiracy
theories. The University did not ask Plaintiff to stop
blogging but did request that he post an adequate
disclaimer on his blog and report his outside activities,
as required under the faculty’s collective bargaining
agreement (“CBA”). As part of a settlement agreement,
Plaintiff complied in part, posting a University-approved
disclaimer. But he adamantly refused to report his blog,
arguing that the blog did not qualify as a “Reportable
Outside Activity” under the CBA’s “Conflict of Interest/
Outside Activities” policy (“the Policy”). Approximately
two years later, after Plaintiff refused multiple requests
to submit outside-activity reports and ignored warnings
that his recalcitrance could result in termination, the
University fired him for insubordination.
* Honorable Paul J. Kelly, Jr., United States Circuit Judge for the
Tenth Circuit, sitting by designation.

3a
Appendix A
Plaintiff sued the University and associated individuals
alleging that the Policy was unconstitutionally vague,
that his termination breached the CBA, and that the
University had used his insubordination as a pretext for
First Amendment retaliation. Concluding that Plaintiff
had failed to exhaust his remedies and that his vagueness
challenge as to the Policy was not viable, the district
court granted summary judgment against Plaintiff on
both his constitutional and breach-of-contract claims. The
court denied summary judgment as to Plaintiff’s First
Amendment retaliation claim, sending this claim to trial.
The jury rejected Plaintiff’s First Amendment retaliation
claim after a nine-day trial. On appeal, Plaintiff asks us
to reverse the district court’s summary judgment rulings
and to overturn the jury verdict. We decline to do so and
affirm the decisions below.
I. 	PROCEDURAL HISTORY
Plaintiff’s Second Amended Complaint asserted six
claims, only five of which are at issue on appeal.1 Claims
1, 3, and 4 were constitutional challenges asserted
under 42 U.S.C. § 1983. In Claim 1, Plaintiff alleged
that Defendants had terminated him in retaliation for
exercising his constitutionally protected speech rights.
Claims 3 and 4 alleged that the Policy was vague and
overbroad, both facially and as applied to Plaintiff. Claim
5 requested a declaratory judgment that the Policy was
1. Plaintiff alleged in Claim 2 that his union conspired with
the University to interfere with his civil rights. On appeal, Plaintiff
does not challenge the district court’s grant of summary judgment
to Defendants on that claim.

4a
Appendix A
unconstitutional. Finally, in Claim 6, Plaintiff alleged that
the University had breached the CBA by firing him.
Defendants moved for summary judgment on all
claims. In response, Plaintiff moved for partial summary
judgment on Claims 1, 3, 4, and 5, arguing that the
evidence showed he was terminated in retaliation for his
protected speech and that the Policy was unconstitutional.
The district court denied Plaintiff’s motion. As for
Defendants’ motion, the district court granted summary
judgment to Defendants on Claims 2-6, but denied the
motion with respect to Claim 1: the First Amendment
retaliation claim.
At trial, the jury returned a verdict for the University
on Claim 1, finding “[t]hat Professor Tracy’s blog speech
was [not] a motivating factor in FAU’s decision to
discharge him from employment.” Plaintiff moved for
judgment as a matter of law, arguing that the jury could
not have reasonably found that his speech did not motivate
the University to fire him. In the alternative, Plaintiff
moved for a new trial, arguing that the verdict was against
the great weight of the evidence, and that the court had
abused its discretion in excluding a transcript of a Faculty
Senate meeting where professors complained about the
Policy. The district court denied Plaintiff’s motions. This
appeal followed.

5a
Appendix A
II. 	DISCUSSION
A. 	Summary Judgment
The district court granted summary judgment to
the University on Plaintiff’s breach-of-contract claim
(Claim 6), on his § 1983 claims that the Policy was facially
unconstitutional (Claim 3) and unconstitutional as applied
to him (Claim 4), and on his declaratory-judgment claim
that the Policy should be declared unconstitutional (Claim
5). We affirm the district court’s summary judgment
rulings.
This Court reviews constitutional questions de
novo. Fort Lauderdale Food Not Bombs v. City of Fort
Lauderdale, 901 F.3d 1235, 1239 (11th Cir. 2018). We
also review de novo a district court’s grant of summary
judgment, viewing the evidence in the light most favorable
to the non-moving party. Id. at 1239-40. “The court shall
grant summary judgment if the movant shows that there
is no genuine dispute as to any material fact and the
movant is entitled to judgment as a matter of law.” Fed.
R. Civ. P. 56(a).
1.

Claim 6: Breach-of-contract claim

The district court correctly concluded that Plaintiff’s
failure to exhaust the CBA’s mandatory grievanceand-arbitration procedures barred his claim that the
University breached the CBA by firing him (Claim 6).
“An employee claiming a breach by his employer of the
collective bargaining agreement is bound by the terms

6a
Appendix A
of that agreement as to the method for enforcing his
contractual rights” and “must attempt to use the grievance
and arbitration procedure established by the employer
and union in the collective bargaining agreement prior
to bringing suit in federal court.” Redmond v. Dresser
Indus., Inc., 734 F.2d 633, 635 (11th Cir. 1984).
Plaintiff concedes that he did not grieve his disputes
in accordance with the CBA. He argues, however, that the
grievance procedure was optional and that grieving would
have been futile. Plaintiff’s arguments are unpersuasive.
The CBA clearly provides that the grievance procedure
was mandatory, stating that that the procedure “shall be
the sole and exclusive method for resolving the grievances
of employees.” As to his claim of futility, Plaintiff provides
no support for his conclusory statement that “filing a
grievance would have been a meaningless gesture.”
As the district court correctly observed, Plaintiff was
not at the mercy of the University’s judgment because
the collective bargaining agreement provided for an
independent arbitrator. Accordingly, the district court
did not err in granting summary judgment on Plaintiff’s
breach-of-contract claim.
2.

Claims 3 – 5: Constitutional claims
challenging the Policy

A lthough we aff irm the district court on the
constitutional claims, we get there by a different route
than did that court. The district court granted summary
judgment to the University on Plaintiff’s constitutional
claims challenging the Policy under the First and

7a
Appendix A
Fourteenth Amendments (Claims 3-5), ruling that
Plaintiff failed to exhaust those claims through the CBA’s
grievance procedure and, in any event, that the CBA’s
contractual terms, unlike positive law, are not subject to
a challenge on the ground of vagueness. 2
In so explaining its ruling, the district court relied
on Hawks v. City of Pontiac, 874 F.2d 347 (6th Cir.
1989). In that case, the plaintiff police officer had been
demoted after violating a residency requirement in a
2. The district court also indicated its belief that Plaintiff lacked
appellate standing to challenge the district court’s grant of summary
judgment on his claims that the Policy was unconstitutional because
the jury’s determination that the University did not fire Plaintiff
based on his speech left Plaintiff with no standing to challenge that
policy. We disagree with that assessment. “The primary limitation
on a litigant’s appellate standing is the adverseness requirement,”
under which “[o]nly a litigant who is aggrieved by the judgment or
order may appeal.” Wolff v. Cash 4 Titles, 351 F.3d 1348, 1353-54 (11th
Cir. 2003) (alteration accepted) (quotation marks omitted). The jury’s
finding that the University did not fire Plaintiff for his speech did
not decide Plaintiff’s claim that the University fired him for failing
to comply with what he asserts to be an unconstitutional policy. In
any event, even if one concluded that the jury’s finding precluded
a reversal of the district court’s grant of summary judgment on
the constitutional claims, Plaintiff has standing to challenge the
summary judgment ruling because he has appealed that jury verdict,
meaning a successful appeal could result in a new trial.
The district court also ruled that Plaintiff had waived his
constitutional challenge to the Policy because, as a former union
president and as a union member, Plaintiff had accepted the CBA’s
terms, one of which terms included the policy that Plaintiff now
challenges. Defendants expressly abandoned their waiver defense
at trial, however, and that ruling is not before us on appeal.

8a
Appendix A
collective bargaining agreement. Id. at 348-49. The
Sixth Circuit held that the officer could not challenge
the requirement because it was a contractual term that
“may not be characterized as a positive law subject to due
process challenge for vagueness” and the requirement’s
interpretation was subject to the collective bargaining
agreement’s grievance and arbitration process. Id. at
349-50. Hawks has some intuitive appeal because the
vagueness doctrine concerns fair notice, and parties to
a contract are ordinarily presumed to understand terms
to which they have agreed. See FCC v. Fox Television
Stations, Inc., 567 U.S. 239, 253, 132 S. Ct. 2307, 183 L.
Ed. 2d 234 (2012) (noting that the vagueness doctrine
addresses “[a] fundamental principle in our legal system
. . . that laws which regulate persons or entities must give
fair notice of conduct that is forbidden or required”); see
also 27 Williston on Contracts § 70:114 (4th ed.) (“One who
signs or accepts a written contract, in the absence of fraud
or other wrongful act on the part of another contracting
party, is conclusively presumed to know its contents and
to assent to them.”).
Nevertheless, there are reasons to doubt the viability
of the Sixth Circuit’s reasoning, given the existence of
caselaw indicating that § 1983 claims generally need not
be exhausted and that collective bargaining agreements
are not immune to constitutional challenges, plus the fact
that courts regularly entertain vagueness challenges to
policies that do not qualify as positive law. Patsy v. Bd. of
Regents of State of Fla., 457 U.S. 496, 515-16, 102 S. Ct.
2557, 73 L. Ed. 2d 172 (1982) (holding that § 1983 claims
need not be exhausted unless Congress has “carved out

9a
Appendix A
. . . [an] exception to the no-exhaustion rule”); Beaulieu
v. City of Alabaster, 454 F.3d 1219, 1226-27 (11th Cir.
2006) (“The Supreme Court and this Court have held
that there is no requirement that a plaintiff exhaust his
administrative remedies before filing suit under § 1983.”
(citing Patsy, 457 U.S. at 516)); Narumanchi v. Bd. of
Trustees of Connecticut State Univ., 850 F.2d 70, 73
(2d Cir. 1988) (“Nor is it permissible, in light of Patsy v.
Board of Regents, supra, to require initial recourse to
available state proceedings, including union grievance
proceedings, for the enforcement of First Amendment
rights protectable in federal court pursuant to section
1983.”); Wygant v. Jackson Bd. of Educ., 476 U.S. 267, 27374, 284, 106 S. Ct. 1842, 90 L. Ed. 2d 260 (1986) (holding
that a contractual provision in a collective bargaining
agreement, which “operate[d] against whites and in favor
of certain minorities,” violated the Equal Protection
Clause); see, e.g., Doe v. Valencia Coll., 903 F.3d 1220,
1232-33 (11th Cir. 2018) (concluding that a university’s
code of conduct, which did not qualify as positive law,
was neither facially overbroad nor unconstitutionally
vague); see also Hamilton v. U.S. Postal Serv., 746
F.2d 1325, 1328 (8th Cir. 1984) (holding that a collective
bargaining agreement’s standard for discipline was not
unconstitutionally vague).
That said, we need not accept or reject the Sixth
Circuit’s reasoning to resolve this appeal, as Plaintiff
loses on the merits of his challenge. See Wetherbee v. S.
Co., 754 F.3d 901, 905 (11th Cir. 2014) (noting that we may
affirm a district court’s summary judgment ruling on any
ground supported by the record). Thus, without deciding

10a
Appendix A
the issue, we assume for the purposes of this appeal that
Plaintiff could constitutionally challenge the Policy on
vagueness grounds.
In evaluating the merits of Plaintiff’s challenge, we
note first that the CBA’s Policy has two components.
First, the Policy includes a reporting requirement,
under which a faculty member who proposes to engage
in a “Reportable Outside Activity” must submit “a
detailed written description of the proposed activity.”
The CBA defines “Reportable Outside Activity” as “any
compensated or uncompensated professional practice,
consulting, teaching or research, which is not part of the
employee’s assigned duties and for which the University
has provided no compensation.” (Emphasis added.)
Second, the Policy includes a prohibition on engaging in
any “conflict of interest,” which is defined as including
(1) “any conflict between the private interests of the
employee and the public interests of the University,” (2)
“any activity which interferes with the full performance of
the employee’s professional or institutional responsibilities
or obligations,” and (3) “any outside teaching employment.”
Thus, the Policy’s reporting requirement allows the
University to assess whether a professor’s outside
activity constitutes a conflict of interest, while the Policy’s
prohibition on conflicts of interest provides a mechanism
for the University to prohibit an outside activity that so
qualifies.
Plaintiff raises two primary arguments, which
roughly correspond to the Policy’s two components.
First, he argues that the reporting requirement is

11a
Appendix A
unconstitutionally vague because the term “professional
practice” in the definition of “Reportable Outside Activity”
does not give fair notice to professors as to what must
be reported. In particular, he contends that the term
“professional practice” is undefined and broad enough
to encompass any outside activity because the Policy
states that the term includes both “compensated and
uncompensated” activities.
Plaintiff’s argument is unpersuasive. “The void-forvagueness doctrine serves two central purposes: (1) to
provide fair notice of prohibitions, so that individuals
may steer clear of unlawful conduct; and (2) to prevent
arbitrary and discriminatory enforcement of laws.” Mason
v. Fla. Bar, 208 F.3d 952, 959 (11th Cir. 2000). Accordingly,
“[v]agueness arises when a statute is so unclear as to what
conduct is applicable that persons of common intelligence
must necessarily guess at its meaning and differ as to its
application.” Id. at 958.
Here, the term “professional practice” is not vague,
especially when considered in context. Further, the fact
that the Policy does not define “professional practice” is not
dispositive. When a term is left undefined, “we normally
construe it in accord with its ordinary or natural meaning.”
See Smith v. United States, 508 U.S. 223, 228, 113 S. Ct.
2050, 124 L. Ed. 2d 138 (1993); accord F.D.I.C. v. Meyer,
510 U.S. 471, 476, 114 S. Ct. 996, 127 L. Ed. 2d 308 (1994).
On that score, the ordinary meaning of “professional
practice” is readily understandable, and its scope is
limited. “Practice” means “to make use of” or “to carry
on or engage in.” Practice, Merriam-Webster Unabridged,

12a
Appendix A
https://unabridged.merriam-webster.com/unabridged/
practice (last visited Nov. 3, 2020). “Professional” is
generally defined as “of, or relating to, or characteristic of
a profession or calling” or “engaged in one of the learned
professions or in an occupation requiring a high level of
training and proficiency.” Professional, Merriam-Webster
Unabridged, https://unabridged.merriam-webster.com/
unabridged/professional (last visited Nov. 3, 2020). Thus,
“professional practice” refers to engaging in an activity
characteristic of one’s profession. That the Policy uses
the term “professional practice” in this sense is further
confirmed by the fact that it appears in a list of activities
typically engaged in by academic professionals, such as
“consulting,” “teaching,” and “research.” See Third Nat’l
Bank in Nashville v. Impac Ltd., Inc., 432 U.S. 312, 322,
97 S. Ct. 2307, 53 L. Ed. 2d 368 (1977) (“It is a familiar
principle of statutory construction that words grouped in
a list should be given related meaning.”); see also Ace Am.
Ins. Co. v. Wattles Co., 930 F.3d 1240, 1258-59 (11th Cir.
2019) (discussing the “associated words canon”). Finally,
because the plain meaning of “professional practice” limits
the term’s application to activities that are “professional”
in nature, the term does not encompass any and all outside
activities, as Plaintiff contends.
While certain activities might less clearly connote
a professional practice than would other activities, that
possibility does not render the Policy unconstitutionally
vague. See United States v. Williams, 553 U.S. 285, 306,
128 S. Ct. 1830, 170 L. Ed. 2d 650 (2008) (“What renders
a statute vague is not the possibility that it will sometimes
be difficult to determine whether the incriminating

13a
Appendix A
fact it establishes has been proved; but rather the
indeterminacy of precisely what that fact is.”); see also
Fox Television Stations, 567 U.S. at 253 (“[A] regulation
is not vague because it may at times be difficult to prove
an incriminating fact but rather because it is unclear as to
what fact must be proved.”). “[P]erfect clarity and precise
guidance have never been required even of regulations
that restrict expressive activity.” Ward v. Rock Against
Racism, 491 U.S. 781, 794, 109 S. Ct. 2746, 105 L. Ed. 2d
661 (1989). In short, we conclude that the plain meaning
of “professional practice” provides fair notice to persons
of ordinary intelligence as to what is reportable under
the Policy and does not present a risk of arbitrary or
discriminatory enforcement.
Plaintiff’s vagueness challenge fails for the additional
reason that the reporting requirement clearly applied
to his own particular unreported activity. Cf. Valencia
Coll., 903 F.3d at 1233 (“[A] plaintiff whose speech is
clearly proscribed cannot raise a successful vagueness
claim . . . .” (alteration and ellipsis in original) (quotation
marks omitted)). As his union president later testified, the
blog clearly constituted “professional practice” because
Plaintiff was a media expert who taught courses such
as “The Culture of Conspiracy,” and the blog closely
mirrored what he did professionally.
Finally, we find meritless Plaintiff’s overarching
First Amendment arguments that the Policy’s reporting
requirement is facially overbroad and constitutes a
content-based restriction on speech. A facial-overbreadth
challenge requires a showing that “the statute punishes

14a
Appendix A
a substantial amount of protected free speech.” Valencia
Coll., 903 F.3d at 1232 (emphasis omitted) (quotation marks
omitted). But the reporting requirement does not punish
or restrict any speech; it requires only that faculty report
certain types of speech activities. That University officials
must perform a “cursory examination” of a professor’s
speech content—which is at most what the Policy requires
to assess whether an activity qualifies as a professional
practice—does not transform the reporting requirement
into a content-based regulation. See Hill v. Colorado, 530
U.S. 703, 721-22, 120 S. Ct. 2480, 147 L. Ed. 2d 597 (2000)
(“We have never held, or suggested, that it is improper to
look at the content of an oral or written statement in order
to determine whether a rule of law applies to a course
of conduct.”). Nor has Plaintiff offered any persuasive
argument why, as applied to him, the requirement became
a content-based regulation. Accordingly, Plaintiff’s facial
and as-applied First Amendment challenges to the Policy’s
reporting requirement fail.
Plaintiff ’s second argument is that the Policy’s
definition of “conflict of interest,” combined with its
prohibition of such conflicts, operates as a prior restraint
on speech that is unconstitutional under the unbridleddiscretion doctrine. The unbridled-discretion doctrine
generally applies to licensing or permitting schemes that
require individuals to obtain permission before engaging
in speech activities. See, e.g., City of Lakewood v. Plain
Dealer Publ’g Co., 486 U.S. 750, 769-70, 108 S. Ct. 2138, 100
L. Ed. 2d 771 (1988). Under the doctrine, a licensing scheme
that “allegedly vests unbridled discretion in a government
official over whether to permit or deny expressive

15a
Appendix A
activity” can be challenged as facially unconstitutional.
Id. at 755-56. “To avoid unbridled discretion, the permit
requirements should contain narrowly drawn, reasonable,
and definite standards to guide the official’s decision.”
Bloedorn v. Grube, 631 F.3d 1218, 1236 (11th Cir. 2011).
Here, Plaintiff contends that the definition of “conflict
of interest,” which includes any activity that conflicts with
“the public interests of the University,” fails to adequately
constrain the University’s authority to prohibit outside
activities. At first glance, Plaintiff’s argument is not
entirely implausible. See Lakewood, 486 U.S. at 769-70, 772
(holding that a licensing ordinance, which gave the mayor
authority to deny a permit if he deemed it “necessary
and reasonable,” was facially unconstitutional under the
unbridled-discretion doctrine because “nothing in the law
as written require[d] the mayor to do more than make the
statement ‘it is not in the public interest’ when denying a
permit application”).
On closer inspection, however, Plaintiff’s argument
suffers from a critical defect. Even assuming that the
Policy applies to some speech activities, Plaintiff’s
unbridled-discretion claim fails because he has, at
most, shown a “hypothetical constitutional violation[]
in the abstract.” Granite State Outdoor Advert., Inc.
v. City of St. Petersburg, 348 F.3d 1278, 1282 (11th Cir.
2003) (noting that “we [were] reluctant to invalidate an
entire legitimately-enacted ordinance absent more of a
showing it is as problematic as [the plaintiff] claims”). The
Supreme Court has held that, even when “unduly broad
discretion” creates “a risk that [a licensing official] will

16a
Appendix A
favor or disfavor speech based on its content,” such “abuse
must be dealt with if and when a pattern of unlawful
favoritism appears, rather than by insisting upon a degree
of rigidity that is found in few legal arrangements.”
Thomas v. Chicago Park Dist., 534 U.S. 316, 323, 324-25,
122 S. Ct. 775, 151 L. Ed. 2d 783 (2002); Wright v. City
of St. Petersburg, 833 F.3d 1291, 1299 (11th Cir. 2016) (“A
discriminatory enforcement claim can be brought only if
a pattern of selective enforcement appears.”).
Here, Plaintiff submitted no evidence that the
University has prohibited any professor from engaging
in any speech activity, much less that the University
has relied on a “public interest” rationale in doing so.
Plaintiff’s failure to identify even a single instance in which
the University has determined that an outside speech
activity constitutes a prohibited “conflict of interest” is
telling, as the trial evidence indicated that the Policy’s
language has been part of the CBA for well over a decade.
Indeed, Plaintiff’s claim that the “conflict of interest”
definition is facially overbroad is purely speculative. As the
party with “the burden of demonstrating, from the text of
the law and from actual fact, that substantial overbreadth
exists,” Plaintiff has not shown “a realistic danger that
the statute itself will significantly compromise recognized
First Amendment protections of parties not before the
Court.” Valencia Coll., 903 F.3d at 1232 (emphasis added)
(quotation marks omitted).
In short, we decline to require “a degree of rigidity
that is found in few legal arrangements” based on nothing
more than a hypothetical fear that the University might

17a
Appendix A
discriminate based on speech content when determining
which outside activities constitute a “conflict of interest.”
Thomas, 534 U.S. at 325. Indeed, Plaintiff could have
tested the breadth of the conf lict-of-interest prong
by reporting the activity in question. At that point,
the University could have decided whether or not the
conduct represented a conflict of interest and responded
accordingly. 3 It was Plaintiff’s decision not to do so. Thus,
Plaintiff’s challenge to the Policy’s conflict-of-interest
provision fails on the merits.
3. Indeed, the district court cited a lack of ripeness as an
alternative ground for granting summary judgment to the University
on Plaintiff’s as-applied challenge, found in Claim 4. By failing to
address this ruling in his opening brief, Plaintiff has arguably
abandoned Claim 4. Starship Enterprises of Atlanta, Inc. v. Coweta
Cty., 708 F.3d 1243, 1252 n.12 (11th Cir. 2013). In any event, we
conclude that the district court’s ripeness ruling was correct insofar
as it addressed Plaintiff’s challenge to the University’s application of
the Policy’s “conflict of interest” definition. “The ripeness doctrine
protects federal courts from engaging in speculation or wasting
their resources through the review of potential or abstract disputes.”
Digital Props., Inc. v. City of Plantation, 121 F.3d 586, 589 (11th
Cir. 1997). Here, Plaintiff’s as-applied challenge to the conflict-ofinterest provision was unripe because he failed to report his blog,
thereby depriving the University of an opportunity to determine
whether his blog speech constituted a prohibited “conflict of interest”
under the Policy. See id. at 590 (holding that a First Amendment
as-applied challenge to a zoning ordinance was unripe because
the plaintiff did not satisfy its “obligation to obtain a conclusive
response from someone with the knowledge and authority to speak
for the City regarding the application of the zoning scheme to [the
plaintiff’s] proposal”). In other words, the University never applied
the conflict-of-interest provision and therefore never restricted
Plaintiff’s speech.

18a
Appendix A
Given that Plaintiff’s constitutional challenges to the
Policy asserted in Claims 3 and 4 fail on the merits, his
declaratory-judgment claim based on those same grounds
(Claim 5) fails as well. Accordingly, we affirm the district
court’s grant of summary judgment to the University on
Claims 3–5.4
B. Motions for Judgment as a Matter of Law and
for a New Trial
Plaintiff not only attacks the district court’s grant
of summary judgment as to certain claims, but also
challenges the jury’s verdict against him on the one claim
that went to trial: the retaliation claim. Arguing that no
reasonable juror could have found that his blog speech did
not motivate the University to fire him, Plaintiff argues
that the district court erred in denying his motion for
judgment as a matter of law and abused its discretion
in denying his motion for a new trial. Plaintiff, however,
cherry-picks the evidence supporting his theory of the
case, while ignoring the substantial body of evidence
supporting the jury verdict. Accordingly, his contentions
on this point are unpersuasive.
We review de novo a district court’s denial of a renewed
motion for judgment as a matter of law, considering the
4. On appeal, Plaintiff argues that we must reverse the
district court’s grant of qualified immunity to two of the individual
defendants on Claim 1 if we reverse the court’s summary judgment
ruling on Claims 3-5. Because we affirm the district court’s summary
judgment rulings, we obviously do not disturb the district court’s
qualified-immunity rulings.

19a
Appendix A
evidence in the light most favorable to the nonmoving
party. EEOC v. Exel, Inc., 884 F.3d 1326, 1329 (11th Cir.
2018), cert. denied sub nom. Travis v. Exel, Inc., 139 S. Ct.
1373, 203 L. Ed. 2d 609 (2019). Judgment as a matter of
law is appropriate where a court finds that “a reasonable
jury would not have a legally sufficient evidentiary basis to
find for [a] party on [an] issue.” Fed. R. Civ. P. 50(a)(1). “We
will not second-guess the jury or substitute our judgment
for its judgment if its verdict is supported by sufficient
evidence.” Exel, 884 F.3d at 1329 (quoting Lambert v.
Fulton Cty., 253 F.3d 588, 594 (11th Cir. 2001)).
We review for an abuse of discretion a denial of a
motion for new trial. Pensacola Motor Sales Inc. v. E.
Shore Toyota, LLC, 684 F.3d 1211, 1231 (11th Cir. 2012).
“A judge should grant a motion for a new trial when the
verdict is against the clear weight of the evidence or
will result in a miscarriage of justice, even though there
may be substantial evidence which would prevent the
direction of a verdict.” Lipphardt v. Durango Steakhouse
of Brandon, Inc., 267 F.3d 1183, 1186 (11th Cir. 2001)
(quotation marks omitted). “Because it is critical that a
judge does not merely substitute his judgment for that of
the jury, new trials should not be granted on evidentiary
grounds unless, at a minimum, the verdict is against the
great—not merely the greater—weight of the evidence.”
Id. (quotation marks omitted).
To establish that he was discharged in retaliation for
protected speech, Plaintiff had to prove, among other
things, that his speech played a “substantial part” in the
University’s decision to terminate him. Anderson v. Burke

20a
Appendix A
Cty., 239 F.3d 1216, 1219 (11th Cir. 2001). The jury found
that Plaintiff had failed to do so, as it found that Plaintiff’s
blog speech was not a motivating factor in the University’s
decision. We conclude that there was more than sufficient
evidence to support the jury’s verdict.
First, Vice Provost Diane Alperin and Dean Heather
Coltman, who were involved in the decision to fire Plaintiff,
testified that the University terminated Plaintiff for
insubordination, that the University would not have
disciplined him if he had submitted complete outsideactivity reports, and that they never asked Plaintiff to stop
writing his blog. And contrary to Plaintiff’s argument, this
“self-serving testimony” was not “the only evidence [the
University] offered in support of its motivations.”
The record shows that the University waged a multiyear battle to get Plaintiff to comply with his obligation
to report outside activities. The administration told
Plaintiff to file an outside-activity form in 2013. He
refused to do so; instead he argued that he did not need
to report his blog. Then, in 2015, Plaintiff instigated
a new conflict over the reporting requirements when
he refused to accept the “Terms and Conditions” of
his annual academic assignment, one of which terms
included an acknowledgement that faculty must report
outside activities. Rather than agreeing to the “Terms
and Conditions” and simply reporting his blog, Plaintiff
insisted that the University clarify in writing that his blog
could not constitute a conflict of interest.

21a
Appendix A
Accordingly, in November 2015, the University sent
Plaintiff a Notice of Discipline, which gave him 48 hours
to submit outside-activity reports and warned that failure
to do so would constitute insubordination. When Plaintiff
did not submit the forms and expressed confusion about
the Policy, the University extended the deadline, warning
him that failure to comply with the new deadline could
result in termination. 5 But Plaintiff did not meet that
deadline either. Instead, Plaintiff untimely submitted
incomplete outside-activity reports that failed to identify
his blog. Due to his failure to timely file complete outsideactivity reports, the University sent a final Notice of
Proposed Discipline, which warned Plaintiff that he
would be terminated if he did not respond within ten
days. Astonishingly, Plaintiff did not respond and was
terminated based on his own default.6
Given the University’s multiple warnings that
Plaintiff was required to file outside-activity reports
and Plaintiff’s repeated refusal to do so, there is little
doubt that Plaintiff was insubordinate. Indeed, Plaintiff
privately confessed to his union president that his
conduct was “cut-and-dry” insubordination and that he
had not complied with University directives because he
5. Notably, while Plaintiff feigned ignorance as to whether he
should report his Memory Hole Blog, his union president advised him
to report the blog because it was “in line with what [Plaintiff] did
professionally, the conspiracy theories, the media critiquing, media
criticism, . . . [things] that were arguably an extension of what he
did professionally.”
6. Plaintiff blamed his failure to respond on his union attorney’s
incompetence.

22a
Appendix A
believed his tenure status would insulate him against any
discipline. Moreover, according to Vice Provost Alperin,
Plaintiff was not the only faculty member who was fired for
insubordination after failing to complete outside-activity
reports. Given this evidence, and the undisputed fact that
the University had allowed Plaintiff to continue blogging
for over two years, a reasonable jury could have found that
Plaintiff’s insubordination—not his blog speech—was the
University’s sole motivation for firing him.
Although we agree that Plaintiff introduced some
circumstantial evidence of First Amendment retaliation,
the jury was entitled to weigh the evidence. It did so, and
it found for the University. See McGinnis v. Am. Home
Mortg. Servicing, Inc., 817 F.3d 1241, 1254 (11th Cir. 2016)
(holding that it is the jury’s role at trial to weigh conflicting
evidence and determine the credibility of witnesses).
Because sufficient evidence clearly supported the jury’s
finding and because we cannot say that the jury’s verdict
was against the weight of the evidence, we affirm the
district court’s denial of Plaintiff’s renewed motion for
judgment as a matter of law and motion for a new trial.
C. 	Exclusion of the Faculty Senate Meeting
Transcript
On appeal, Plaintiff argues that the court abused its
discretion in excluding an excerpt of the transcript of a
September 2015 Faculty Senate meeting, which excerpt
captured a heated exchange over the Policy by faculty
members. We review evidentiary rulings for an abuse of
discretion. U.S. Steel, LLC, v. Tieco, Inc., 261 F.3d 1275,

23a
Appendix A
1286 (11th Cir. 2001). “An error on an evidentiary ruling
will result in the reversal of a jury’s verdict only if a party
establishes a substantial prejudicial effect or a manifest
injustice.” Id. We conclude that the district court did
not abuse its discretion when it denied admission of this
transcript. Accordingly, we affirm the court’s evidentiary
ruling.
This Faculty Senate meeting transcript that Plaintiff
sought to introduce at trial reflected much antagonism
by some faculty members as to the CBA Policy. Several
professors expressed confusion about what outside
activities were reportable under the Policy. Others took
umbrage at the University’s follow-up inquiries concerning
certain activities that were reported. Vice Provost Alperin
commented that the University had been working to
clarify the outside-activity form. Finally, a faculty member
who was running the meeting said that addressing the
professors’ concerns would be premature because he did
not yet know the relevant facts, but that their complaints
could be the subject of a future meeting.
The district court ruled that the transcript contained a
great deal of inadmissible hearsay but, more importantly,
that its admission would violate Federal Rule of Evidence
403. The court reasoned that the angry remarks of some
of the professors, which did not concern Plaintiff’s specific
case, would focus the jury on the wisdom of the Policy,
not on the question properly before the jury: whether
the University had terminated Plaintiff because of his
blog or instead because of his insubordination. As such,
the transcript not only lacked probative value, but it also

24a
Appendix A
created a substantial risk of unfair prejudice and jury
confusion.
We find no error in the district court’s exclusion of
this evidence pursuant to Rule 403, as we agree with that
court’s reasoning. Rule 403 permits a court to “exclude
relevant evidence if its probative value is substantially
outweighed by a danger of . . . unfair prejudice, confusing
the issues, misleading the jury, undue delay, wasting
time, or needlessly presenting cumulative evidence.” Fed.
R. Evid. 403.7 Given that the professors’ pique was the
predominant focus of the Faculty Senate meeting, there
was a serious risk that admitting the transcript would
cause the University to suffer unfair prejudice, forcing
it to defend its character against inadmissible claims
concerning other individuals, while distracting the jury
from their central obligation to decide the issue before
them.
Moreover, the district court correctly found that
statements regarding faculty confusion had little
probative value for the core issue at trial—whether the
University fired Plaintiff for his speech rather than for
his admitted insubordination. In seeking to introduce
7. We reject Plaintiff’s argument that the professors’ complaints
about the University’s enforcement of the Policy were relevant to
show the effect of these remarks on Plaintiff and the University.
As an initial matter, there is no evidence that Plaintiff was at the
meeting. In any event, whether Plaintiff and the University knew
that some professors disliked the Policy or that some professors
indicated their confusion about the policy was irrelevant to whether
the University fired Plaintiff because he wrote a blog.

25a
Appendix A
evidence of purported confusion by some faculty members
about the Policy, Plaintiff sought to corroborate his claim
that he was confused about the Policy, which he said might
help to explain why he had acted in an insubordinate
manner. But whether or not another faculty member was
uncertain whether that member’s particular activity was
reportable had nothing to do with whether Plaintiff was
confused about whether his own blogging activities met
the reporting requirement. Moreover, as the district court
correctly noted, the transcript evidence was cumulative
of other evidence introduced by Plaintiff in support of his
claim that he was confused.
In short, we conclude that the district court did not
abuse its discretion in excluding the Faculty Senate
meeting transcript.
III.	CONCLUSION
After careful consideration, and with the benefit of
oral argument, we affirm the district court’s summary
judgment rulings and its denial of Plaintiff’s post-trial
motions for judgment as a matter of law and for a new trial.
AFFIRMED.

26a
B THE UNITED
APPENDIX B —Appendix
ORDER OF
STATES DISTRICT COURT FOR THE SOUTHERN
DISTRICT OF FLORIDA, FILED APRIL 24, 2018
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
CASE NO. 9:16-CV-80655-ROSENBERG
JAMES TRACY,
Plaintiff,
v.
FLORIDA ATLANTIC UNIVERSITY
BOARD OF TRUSTEES A/K/A FLORIDA
ATLANTIC UNIVERSITY, et al.,
Defendants.
April 24, 2018, Decided;
April 24, 2018, Entered on Docket
ORDER DENYING PLAINTIFF’S MOTION
FOR NEW TRIAL AND DENYING PLAINTIFF’S
RENEWED MOTION FOR JUDGMENT
AS A MATTER OF LAW
This matter is before the Court on Plaintiff’s Motion
for New Trial [DE 453] and Plaintiff’s Renewed Motion for
Judgment as a Matter of Law [DE 450]. The motions have
been fully briefed. The Court has reviewed the briefing

27a
Appendix B
papers, the evidence at trial, and the entire record. For
the reasons set forth below, both motions are denied.
I. BACKGROUND1
Plaintiff, James Tracy, was a tenured professor at
Florida Atlantic University—a Defendant in this case. DE
246 at 1. Plaintiff taught in the School of Communications
and Multimedia Studies. Id. Some of Plaintiff’s courses
included “Public Opinion and Modernity” and “Culture
of Conspiracy.” Id. Plaintiff conducted research in mass
shootings, the JFK assassination, and the Sandy Hook
massacre—a mass shooting event in which many children
were reported to have been killed. See id.
In December of 2012, Plaintiff began to blog about
the Sandy Hook shooting. DE 248 at 2. Plaintiff’s blog
suggested that the Sandy Hook shooting had never taken
place and was “staged by the government to promote gun
control.” Id. Plaintiff’s blog garnered national attention
and was widely reported by the press. Id. Many people
called on FAU to fire Plaintiff. See id. at 2-9.
In January of 2013, FAU began to have internal
discussions about Plaintiff’s blog. Id. Ultimately, FAU
issued a notice of discipline to Plaintiff pertaining to his
lack of an adequate disclaimer (drawing a distinction
between Plaintiff’s opinions and FAU’s opinions) on
his blog. Id. at 3. Plaintiff’s union defended him. Id.
1. These undisputed facts are taken from the Court’s Order
on Summary Judgment; these facts adequately summarize the
background of this case as introduced and admitted at trial.

28a
Appendix B
The parties eventually reached an agreement wherein
Plaintiff used a disclaimer on his blog that was to FAU’s
satisfaction. Id. at 4.
After Plaintiff amended the disclaimer on his blog, he
continued to teach courses at FAU. DE 246 at 5. In October
of 2015, however, a new dispute—a contractual dispute—
arose between the parties. Id. at 6. FAU has a Collective
Bargaining Agreement (the “CBA”) with its faculty.
Id. at 2. The CBA contains many terms and conditions,
including an article entitled “Conflict of Interest/Outside
Activity.” Id. This article imposes certain conditions upon
faculty members. One such condition of the article is that
“[c]onflicts of interest are prohibited.” Id. at 131. A conflict
of interest is defined as:
(1) any conflict between the private interests
of the employee and the public interests of
the University, the Board of Trustees, or the
State of Florida, including conflicts of interest
specified under Florida Statutes;
(2) any activity which interferes with the full
performance of the employee’s professional or
institutional responsibilities or obligations; or
(3) any outside teaching employment with any
other educational institution during a period in
which the employee has an appointment with
Florida Atlantic University, except with written
approval of the Dean.

29a
Appendix B
Id. The article also imposes certain reporting requirements
upon faculty, including the following:
An employee who proposes to engage in outside
activity shall provide his or her supervisor a
detailed written description of the proposed
activity. The report shall include where
applicable, the name of the employer or other
recipient of services; the funding source; the
location where such activity shall be performed;
the nature and extent of the activity; and any
intended use of University facilities, equipment,
or services. A new report shall be submitted
for outside activity previously reported at the
beginning of each academic year for outside
activity of a continuing nature and whenever
there is a significant change in an activity
(nature, extent, funding, etc.) The reporting
provisions of this section shall not apply to
activities performed wholly during a period in
which the employee has no appointment with
the University. Any outside activity which
falls under the provisions of this Article and in
which the employee is currently engaged but
has not previously reported, shall be reported
within sixty (60) days of the execution of this
Agreement and shall conform to the provisions
of this Article.
Id. at 132. The CBA contains a mandatory grievance
procedure that a faculty member must use if the member
has a grievance with any portion of the CBA. Id. at 133.

30a
Appendix B
In October of 2015, Plaintiff was completing an
electronic acknowledgment form that FAU had sent to
him. DE 246 at 6. That form required Plaintiff to check
a box “acknowledging [his] obligation to report outside
activities” as well as other things. Id. Plaintiff refused
to check the box. Id. Instead, Plaintiff printed out a hard
copy of the form and submitted it to FAU without checking
the box. Id.
Also in October of 2015, an FAU supervisor ordered
Plaintiff to report his outside activities by completing and
submitting a conflict of interest form. See DE 248 at 5.
Plaintiff does not appear to dispute that he was ordered
to complete the conflict of interest form (also called an
outside activities form) multiple times by his supervisors.
See DE 274 at 5-6. 2 In lieu of completing the form in the
manner in which FAU required, Plaintiff, in his own
words, “asked his supervisors for clarification about the
scope and application of the Policy” and he also required
from FAU “a signed statement asserting FAU’s position
that his personal activities (media criticism, alternative
journalism, and blogging) did not fall within the definition
of ‘conflict of interest’” under the CBA. DE 248 at 5.
On November 10, 2015, Defendants issued a notice of
discipline to Plaintiff. Id. The notice required Plaintiff
to submit conflict of interest forms within forty-eight
hours. Id. On November 22, 2015, Plaintiff responded by
letter, informing Defendants that he had not received the
2. Instead, it appears that Plaintiff’s position is that he complied
with his supervisor’s directives by submitting a hard copy of the
online form that did not contain a checkmark in the applicable box.

31a
Appendix B
clarification that he had requested on the “considerable
confusion” created by FAU’s administration of the CBA,
together with related policies. Id. On December 11, 2015,
Defendants responded to Plaintiff’s letter by informing
him that he had until 5:00 p.m. on December 15, 2015, to
“completely and accurately fill out the conflict of interest
forms.” Id. at 7. Plaintiff admits that he did not submit the
forms by 5:00 p.m. on December 15, 2015. DE 467 at 112.
On December 16, 2015, Defendants issued a notice of
termination to Plaintiff. Defendants’ position was that
because Plaintiff had refused to fill out his conflict of
interest forms, Defendants could not ascertain whether
Plaintiff was in compliance with the outside activities /
conflict of interest portions of the CBA. Id.
Earlier, sometime during the month of November of
2015, Plaintiff requested assistance from his union. DE
246 at 7. Plaintiff’s union hired an attorney for Plaintiff.
Id. at 8. After Plaintiff received his notice of termination,
Plaintiff was required to file a grievance contesting his
termination within ten days. Id. Plaintiff’s attorney
negotiated for an extension for additional time to grieve.
See id. The extension was granted. Id. at 9. Plaintiff never
filed a grievance. Instead, Plaintiff filed this lawsuit on
April 25, 2016.
Initially, Plaintiff filed this lawsuit against FAU,
certain individual Defendants at FAU, his union, and
certain individual Defendants at his union. During
the pendency of this suit, however, Plaintiff reached a
settlement agreement with all union Defendants. After

32a
Appendix B
extensive motion practice, this case was tried from
November 29, 2017, to December 11, 2017. A single count
was submitted to the jury: Plaintiff’s First Amendment
retaliation claim. The jury returned a verdict on December
12, 2017, finding that Plaintiff’s termination was unrelated
to Plaintiff’s exercise of his First Amendment rights. DE
437. On January 8, 2018, Plaintiff filed a Renewed Motion
for Judgment as a Matter of Law. On January 12, 2018,
Plaintiff filed a Motion for New Trial.
II. ANALYSIS AND DISCUSSION
A new trial should not be granted “unless, at a
minimum, the verdict is against the great—not merely the
greater—weight of the evidence.” Pensacola Motor Sales,
Inc. v. Eastern Shore Toyota, LLC., 684 F.3d 1211, 1231
(11th Cir. 2012). Although the Court is permitted to weigh
the evidence, it must be with this standard in mind. See
Watts v. Great Atlantic & Pacific Tea Co., Inc., 842 F.2d
307, 310 (11th Cir. 1988) (“In ruling on a motion for new
trial, the trial judge is permitted to weigh the evidence,
but to grant the motion he must find the verdict contrary to
the great, not merely the greater, weight of the evidence.”).
In assessing evidentiary rulings already made by
this Court, the question is whether the exclusion of the
evidence affected Plaintiff’s substantial rights. “Error
in the admission or exclusion of evidence is harmless if it
does not affect the substantial rights of the parties.” Perry
v. State Farm Fire & Cas. Co., 734 F.2d 1441, 1446 (11th
Cir. 1984). Plaintiff bears the burden of showing that the
decision(s) affected his substantial rights. Id.

33a
Appendix B
Before the Court analyzes the merits of Plaintiff’s
arguments, the Court addresses one recurring issue in the
motions before the Court. Plaintiff cites multiple times to
the Court’s Order on Summary Judgment and the Court’s
oral ruling denying Defendants’ motion for judgment as a
matter of law in support of his pending motions. Plaintiff’s
citations and quotations to the Court’s prior orders
reference the Court’s discussion of the evidence. That is
improper argument. The Court was required, in the cited
orders, to view the evidence in the light most favorable to
Plaintiff. With respect to Plaintiff’s Motion for Judgment
as a Matter of Law, the Court is required to view the
evidence in the light most favorable to Defendants. With
respect to Plaintiff’s Motion for New Trial, the Court is
required to independently weigh the evidence introduced
at trial—not refer back to the Court’s analysis of evidence
viewed in the light most favorable to a specific party.
Plaintiff raises five separate arguments: (A) that the
jury’s verdict was not supported by the evidence, (B) that
this Court erred in excluding a certain audio recording,
(C) that this Court erred in excluding certain third-party
letters, (D) that this Court should enter judgment as a
matter of law in Plaintiff’s favor, and (E) that this Court
should reconsider its prior Order on Summary Judgment.
Each argument is considered in turn.
A. The Jury’s Verdict Was Supported by the Evidence
at Trial
The central premise in Plaintiff’s Motion for New Trial
is that the jury’s verdict was against the great weight of

34a
Appendix B
the evidence. This contention is without merit. Instead,
the Court concludes that the great weight of the evidence
at trial was in favor of Defendants. The jury was entitled
to disregard and discredit all of Plaintiff’s evidence at
trial, provided that there was an evidentiary basis on
which to do so. And there was. Plaintiff’s evidence was
called into question in every possible way at trial. For the
purpose of explaining why Plaintiff’s premise is rejected
by this Court, and for the purpose of demonstrating why
the jury’s decision was not against the great weight of
the evidence, the Court sets forth below a portion of the
evidence introduced at trial that favored Defendants.
First, evidence was repeatedly introduced that
Plaintiff was at all times permitted to blog without any
censorship by Defendants:
Q. Did you place any limits on Professor Tracy’s
speech or his research?
A. Never.
Q. You didn’t tell him to stop blogging and cut
it off, none of that stuff?
A. No. He had the freedom to do that.
E.g., DE 470 at 120. The jury was entitled to credit this
testimony. Similarly, Defendants repeatedly elicited
testimony that if Plaintiff had complied with his obligation
to complete all necessary university forms, he would have
been permitted to keep his job:

35a
Appendix B
Q. If Dr. Tracy had submitted the fully
completed forms, would you have made the
decision to send him the notice of proposed
termination?
A. I would not have sent him that notice, correct.
DE 469 at 36. The jury was entitled to credit this
testimony. Moreover, the period of time running from
Plaintiff’s most controversial blog posts about Sandy
Hook to the time of Plaintiff’s termination was three
years—this time period calls into question the entire
theory of Plaintiff’s case. While Plaintiff contends that
Defendants essentially bided their time, and were waiting
for an opening to terminate Plaintiff because they disliked
Plaintiff’s blog speech, evidence was introduced at trial
that called Plaintiff’s theory into question. 3 By way of
example, another professor at FAU caused a controversy
that resulted in “massive media attention,” because of
an event entitled “Stomp on Jesus.” DE 470 at 135. That
controversy resulted in a police presence on campus.
DE 470 at 172. Yet, that professor was able to keep his
job at FAU—there was no censorship. DE 470 at 135.
Defendants’ position throughout trial was that Plaintiff
was terminated solely for his insubordination in refusing
to fill out outside activities forms, and Plaintiff failed
to produce any evidence of an employee at FAU who
3. Plaintiff also posited that persistent media attention
triggered Defendants’ termination of Plaintiff, but Defendants
succeeded in calling into question this theory as well. Compare DE
471 at 26-28, with DE 473 at 36, 56-57.

36a
Appendix B
refused4 to fill out the form (when asked to do so) and
was treated differently. Instead, the evidence showed
that another professor who, like Plaintiff, did not fill out
the necessary forms and who received compensation from
outside activities received a notice of termination. DE 469
at 22-23; Defendant’s Exhibit 206.5 Finally, Plaintiff’s own
witness, Professor Robe, admitted that if he were asked
to fill out outside activity forms he would do so lest he be
considered insubordinate. DE 470 at 224.
Second, a large amount of evidence was introduced
at trial that showed Plaintiff’s refusal to fill out FAU
forms was insubordinate. Plaintiff was advised to fill
out the forms by virtually everyone—even his union
representatives:
Q. What did you advise Professor Tracy once
you read this letter?
A. I think I said something to the effect that
-- I think I said something like sign it or -- I
said, even if you say under duress, sign it, say
you did it under duress to do it.
4. While Plaintiff may have testified that he never refused to
complete FAU’s outside activities forms, there was a plethora of
evidence at trial upon which a reasonable juror could rely to conclude
that Plaintiff unequivocally refused FAU’s demand to complete
outside activities forms. E.g., “[Plaintiff] told me he refused to submit
[the forms].” Video Deposition of Mr. Michael Moats, 293:06.
5. The professor at issue ultimately resigned before the
termination process concluded. Defendant’s Exhibit 206. FAU
refused to accept the resignation, however, and treated the situation
as a termination.

37a
Appendix B
Q. You told him to submit the forms?
A. I believe so, yes, that is the best of my
recollection. I am sure you have the emails that
say that.
Q. Why did you recommend that Dr. Tracy fill
out those outside activity forms in November
2015?
A. I was afraid he was going to get fired.
Q. And were you advising Dr. Tracy to try to
help him keep his job?
A. Yes.
DE 471 at 86. Plaintiff’s union representatives also advised
Plaintiff that the insubordination charge was valid:
Q. And so you told Professor Tracy that the
termination was likely valid, right?
A. Yes, I think that may have been my words.
Q. What was the reasoning, if any, behind that
advice?
A. Well, one, every indication that I’d had from
him prior to that was that they had a very good
case against him on insubordination.

38a
Appendix B
Video Deposition of Mr. Michael Moats, 214:17. Evidence
showed that Plaintiff privately admitted to others that
his refusal to fill out the forms was a mistake—that he
thought he would be protected from termination because
of his tenured status:
Q. Based on your personal experience and your
interactions with Dr. Tracy, did he seem to
appreciate the gravity of this notice of proposed
discipline and act in his own best interest?
A. I know when he was terminated, and that
was actually the first time that I actually talked
to him, most of the other communications were
via email, I said, you know, if you thought the
university was after you, why did you make it so
easy for them? And he said -- I was referring to
not filling out the forms, and he said, I thought
tenure would protect me.
DE 471 at 88. Additionally:
Q. [W]hen in 2015 did you go back and look at
[Plaintiff’s file]?
A. After [Plaintiff] called me and said, ‘I think
I fucked up.’
Video Deposition of Michael Moats, 90:14. Evidence in
the form of an e-mail from Plaintiff showed that Plaintiff
knew his refusal to fill out the forms was insubordinate
insofar as he called the insubordination charge against
him “cut-and-dry” as follows:

39a
Appendix B
So Doug, yes, I am interested in going through
the necessary grievance procedure and would
appreciate your help, I don’t know if the
union will support the case to arbitration,
because in terms of the specific description of
“insubordination” and my actions it’s cut-anddry, the admin is like a mule regardless of how
irrational its stances may be, and the union
might not think we can prevail. Then again it
could be resolved before arbitration. In any
event,
Defendants’ Exhibit 111. Finally, the evidence also showed
that Plaintiff was consistently told by others that any
grievance of his proposed termination was unwinnable
because the insubordination charge against him was so
strong. See DE 471 at 96-105; Defendants’ Exhibit 48.
Third, Plaintiff’s contention at trial was that he did not
fill out FAU forms because those forms were confusing,
but Defendants introduced substantial evidence to call
into question Plaintiff’s position. As an initial matter,
it appears that Plaintiff, and Plaintiff alone, completely
refused to fill out the forms. It therefore follows that
every other faculty member or, at the very least, every
other faculty member who was asked to fill out the forms,
did so. A logical inference that the jury was entitled to
make, then, was: “If every faculty member fills out the
forms, how can the forms be so confusing that Plaintiff
could not possibly fill them out?” Similarly, Plaintiff
ultimately did fill out the forms, albeit after the deadline
imposed by FAU, which logically led to a related question:
“If Plaintiff ultimately filled out the forms, how was it

40a
Appendix B
impossible for him to fill out the forms earlier?” The
reasonable and logical inference, then, that the jury was
entitled to make, was that Plaintiff simply chose not to
fill out the forms for his own purposes-to not even make
an attempt. Defendants introduced evidence that showed
that Plaintiff had an ulterior motive in choosing not to fill
out the forms. Specifically, Plaintiff privately e-mailed a
friend, using a non-university e-mail account, in which he
said the following:
hours per week. Nor was I ever asked to do
so by my chair. Although I mentioned that I
contribute to GR I don’t plan on using those
pieces for promotion because they’re not
peer reviewed. Yet, they may inform some of
my research and teaching. So I’m uncertain
whether I should fill out such a form for the
activity ex post facto, especially since it might
give them reason to take disciplinary action
as my remarks may no longer be regarded
solely my own free expression. Our union guy
suggested I do so but I’m going to get some
additional opinions.
DE 467 at 70; Defendants’ Exhibit 114. This evidence,
together with other evidence introduced at trial, could lead
to the reasonable conclusion that Plaintiff did not want to
disclose his outside activities because he did not want the
university to have that information-but FAU never took
any action against Plaintiff’s blog speech6 because Plaintiff
6. The Court notes that, in prior years, when Plaintiff did
complete the outside activities forms, Defendants did not attempt
to silence Plaintiff’s speech on his blog.

41a
Appendix B
refused to disclose his outside activities. In any event, the
jury was entitled to discredit Plaintiff’s explanation—
confusion—because evidence was introduced to call into
question Plaintiff’s purported reason for his failure to
comply.
Fourth, evidence was introduced that Plaintiff’s
refusal to fill out FAU forms was in the context of an
actual violation, by Plaintiff, with respect to the outside
activities that he refused to report. Plaintiff admitted
that he received compensation through his blog; he simply
contended that, according to him, the compensation was
not enough to warrant reporting. DE 467 at 40-45. Even
so, Plaintiff admitted that the amount of the compensation
is not a determinative factor in terms of whether or not
compensation (or an activity) should be reported. DE
467 at 48. Plaintiff took the position that his blog did not
amount to a reportable outside activity. Yet, Plaintiff
privately admitted to others that his blog was a reportable
activity,7 Plaintiff’s union advised him that his blog could
be a reportable outside activity, 8 Plaintiff’s solicitation
for donations on his blog was entitled “Memoryhole
Independent Research Fund,” 9 Plaintiff admitted to
spending hundreds of hours on his blog and related
research, Plaintiff’s blog was closely related in terms of
subject matter to the courses that Plaintiff taught, and
Plaintiff admitted to, at times, using school equipment
7. DE 467 at 70.
8. Video Deposition of Mr. Michael Moats, 88:20.
9. DE 467 at 48.

42a
Appendix B
while working on his blog and associated podcasts.10
Plaintiff privately conceded the close relationship of his
blog and podcasts with the courses that he taught in an
e-mail, using a non-university account, to a colleague:
Because I teach journalism and media studies
I had found doing the program a reinforcement
to my formal professional endeavors, as I
was able to interview authors, journalists,
filmmakers, and fellow academics, getting
their insights on what they do, and how they
function and see the world. Because some
of the content was controversial and in light
of my personal experience and the press’
controversial coverage of me since early 2013,
I had felt uneasy about approaching my chair
to ask that the project be acknowledged as part
of my assignment.
Defendants’ Exhibit 217m. Evidence also showed that
Plaintiff admitted to his union that he had reportable
outside activities:
A. They fired him because they determined that
he did not report the activity once he by his own
admission admitted that the activity rose to the
level of a reportable activity.
Q. By his own admission where?
10. “[I]f he’s using the University resources it’s got to be
reported no matter what he’s doing with the blog.” Video Deposition
of Mr. Michael Moats, 188:09.

43a
Appendix B
A. To me.
Q. When?
A. When we had our first conversation about
whether or not he needed to report this activity.
Video Deposition of Mr. Michael Moats, 88:20. Plaintiff
also received compensation for a book that was published
entitled “Nobody Died at Sandy Hook: It was a FEMA
Drill to Promote Gun Control.” DE 467 at 99.11 That
book, not disclosed to FAU, contained articles from
Plaintiff’s blog; Plaintiff promoted the book on his
podcasts. Defendants’ Exhibit 225. Plaintiff’s receipt of
compensation, both from his blog and the Sandy Hook
book, is particularly significant in light of Plaintiff’s
concession that when “money would be changing hands
this surely would make filling [the forms out] appropriate.”
Defendants’ Exhibit 22.
Fifth, Defendants introduced evidence that called
into question Plaintiff’s truthfulness in general. By way
of example, Plaintiff testified that the reason he did
not communicate with FAU on various matters, such
as reporting the book Nobody Died at Sandy Hook,
and the reason Plaintiff did not respond to Defendants’
compliance demands in a timely fashion, was because he
was on paternity leave and was therefore either unable or
unwilling to check his e-mail inbox. DE 467 at 82-83; 8611. Although the book was published prior to Plaintiff ’s
termination and “an honorarium was discussed,” it appears, as best
as the Court can discern, that Plaintiff did not receive the honorarium
check until after he was terminated. DE 467 at 99.

44a
Appendix B
88; DE 466 at 188. Yet Defendants were able to show that
Plaintiff authored detailed, lengthy e-mails concerning
the Sandy Hook massacre during his paternity leave.
Defendants’ Exhibit 165. Similarly, Plaintiff testified that
he was unable to inform FAU about the publication of the
Sandy Hook book because he “was too busy attempting
to defend [himself]” due to his refusal to complete FAU’s
outside activity form. DE 467 at 130-32. But during this
same period of time, Defendants introduced evidence that
Plaintiff took the time to conduct a podcast to promote
the book. Id. Defendants’ characterization of Plaintiff at
trial was that he was condescending, arrogant, untruthful,
and that he cared more about his blog than his duties
as a teacher. The Court observed at trial that the tone,
demeanor, and vernacular of Plaintiff on the witness stand
could support, if the jury was so inclined, Defendants’
characterization of Plaintiff.
Sixth and finally, Plaintiff’s Motion for New Trial
(which incorporates Plaintiff’s Motion for Judgment as a
Matter of Law) consistently distorts the evidence that was
introduced at trial. By way of example, Plaintiff quotes
and greatly relies upon the following phrases (taken from
an e-mail), which Plaintiff attributes to FAU’s employee
Heather Coltman:
[W]ith every blog post, tweet and proclamation
of false flags, hoaxes, child actors and millionaire
imposter parents, pressures build in the public
to strip all faculty of the protections of tenure.
His termination both holds Tracy accountable
for his despicable behavior and reduces
pressure on the elected officials to end tenure.

45a
Appendix B
DE 450 at 2. Plaintiff treats this quote as if it is, without
question, the opinion of Ms. Coltman and the opinion of
FAU. That is improper for the purposes of a Motion for
New Trial, because the jury was entitled, if it chose, to
believe that this quote belonged to an independent FAU
faculty member completely uninvolved in Plaintiff’s
discipline proceedings. According to Ms. Coltman, the
origin of the quote is as follows:
Q. (Referring to the quote above) That is what
you sent, right?
A. I did not write that statement, it was a copy
and paste.
...
Q. And you said you sent this message because
you agreed with it, right?
A. No, that is not right.
Q. Isn’t this the real reason FAU fired Professor
Tracy?
A. No, it is not.
Q. This isn’t the real reason?
A. This is not the real reason.
Q. Who did you say wrote this?

46a
Appendix B
A. This was written by Jeffrey Morton.
Q. And Jeffrey Morton was a faculty member
at the university?
A. Yes.
Q. In your college?
A. Yes.
Q. He sent this statement to the press, didn’t he?
A. Yes.
Q. To multiple media outlets, didn’t he?
A. I don’t know.
Q. You knew about this statement, didn’t you?
A. Yes, I knew about the statement.
...
Q. Is the email something you wrote?
A. No.
Q. Who wrote it?
A. Jeffrey Morton.

47a
Appendix B
Q. Again, who is he?
A. A professor of political science in the college.
Q. And you were explaining why you didn’t stop
him or prevent him from sending out this -- he
sent it to the newspaper or something. How
did it go?
A. As I recall, I believe the New York Times had
written him requesting comment or something
like that, and I believe he subsequently
determined to send a statement to the Sun
Sentinel. I may have that wrong. Yeah, he
sent this out because he was able to make a
statement as a matter of opinion.
...
Q. Why didn’t you discipline him?
A. Faculty have a right to express their opinion.
DE 470 at 46-47, 78. The jury was entitled to credit this
testimony. As a result, it was within the jury’s purview
to believe that the quote did not express Ms. Coltman’s
views or FAU’s official views, and that Ms. Coltman had
forwarded the quote in an e-mail only because it had
been distributed to the news media by an independent
professor at FAU expressing his personal views, much
like Plaintiff James Tracy. Another point of distortion in
Plaintiff’s motion before the Court is Plaintiff’s repeated

48a
Appendix B
emphasis on the fact that other professors at FAU did
not report their personal blogs or social media accounts
to FAU. E.g., DE 450 at 9-10. That was never the issue
in this case. The issue was Plaintiff’s refusal to report
anything despite multiple direct orders to do so, his
refusal to acknowledge his duty to report (in the form
requested), and also whether Plaintiff’s specific blog (for
which he received compensation) was so closely related
to his professional, paid activities that he was required
to report it. As explained at trial by Mr. Michael Moats:
Q. So, what you’re saying is that every single
faculty member at that University is in violation
of Article 19 aside from Professor Tracy who’s
now been fired for it, is that what you’re saying?
A. Absolutely not. No.
Q. Well, none of them have submitted their
Facebook pages or their Twitter accounts that
we know of.
A . None of t hem — none of t hem h ave
acknowledged that they’re using their Facebook
page for research. [Plaintiff] did.
Q. Okay. And if they did acknowledge that they
would be in violation of Article 19?
A. Absolutely.
Video Deposition of Mr. Michael Moats, 124:16.

49a
Appendix B
To be clear, the Court does not conclude that Plaintiff
had no evidence in support of his claims—the Court
did not grant judgment as a matter of law in favor of
any party. Nor is it the Court’s intent, in reciting the
evidence above, to express any personal views about the
evidence at trial. The Court has set forth the analysis of
the evidence above to demonstrate a small portion of the
evidence introduced at trial that favored Defendants’ case
and supported the jury’s verdict. By contrast, Plaintiff’s
best evidence could adequately be divided into three
categories: (1) Plaintiff’s own testimony, (2) a vague
phrase located in FAU documents, suggesting that, in
the context of Plaintiff’s employment, the university
should “find winning metaphors” (a phrase the jury could
construe to mean anything at all), and (3) celebratory
e-mails that FAU employees exchanged after Plaintiff
was terminated. When Plaintiff’s evidence is juxtaposed
to Defendants’ evidence, the great weight of the evidence
was in Defendants’ favor, not Plaintiff’s. For this reason,
Plaintiff’s Motion for New Trial is denied as to any
argument that the evidence did not support the jury’s
verdict.
B. The Court’s Exclusion of an Audio Recording
Plaintiff argues he is entitled to a new trial because
the Court erred in excluding an audio recording of an
FAU senate faculty meeting. The Court extensively
reviewed that recording and excluded the recording in a
detailed ruling. Plaintiff argues that the exclusion of this
evidence prejudiced him at trial because the recording
showed that FAU’s outside activities policy and forms
were confusing not just to Plaintiff, but to others as well.

50a
Appendix B
This was not a case about confusion, nor was this a case
about what Plaintiff was thinking when he acted as he did.
This was a case about why Plaintiff was terminated. For
that reason, evidence of Plaintiff’s confusion, or evidence
of the confusion of others, was not a core issue in this
case. Still, Plaintiff’s refusal to complete FAU’s outside
activity forms did warrant some sort of explanation, and
Plaintiff’s purported confusion was his explanation for his
refusal. The Court therefore permitted Plaintiff—over
Defendants’ repeated objections—to introduce evidence
of his confusion, but the Court cautioned Plaintiff that
this was an area of limited probative value.
Plaintiff was successful in introducing evidence of
his confusion and the confusion of others on a number of
occasions throughout the trial. E.g., DE 467 at 55 (“I had
conversations with other faculty members on occasions
and they expressed equal confusion concerning the policy
and form.”); DE 470 at 221 (“Question to Mr. Robe: Has
the policy ever confused you? Answer: Absolutely.”).12 To
the extent Plaintiff wishes he had introduced even more
evidence of the confusion of others, the Court consistently
reminded Plaintiff that he was not prevented from
bringing in witnesses to testify about their own confusion.
DE 470 at 63. (“I haven’t precluded you from bringing in
witnesses to testify about confusion.”). As a result, even
if the Court erred in excluding the audio recording, the
Court’s exclusion did not affect the substantial rights
of Plaintiff, particularly in light of the large amount of
12. Plaintiff even admits that “confusion and uncertainty about
the scope and application of the Policy was a recurring theme during
testimony at trial.” DE 450 at 9.

51a
Appendix B
evidence introduced by Defendants that questioned the
veracity of Plaintiff’s purported confusion. Perry v. State
Farm Fire & Cas. Co., 734 F.2d 1441, 1446 (11th Cir. 1984).
It is, however, the Court’s conclusion that its decision to
exclude the recording was correct for the reasons the
Court set forth on the record as stated below:
Defendant argues that hearsay testimony about
what FAU professors said at a certain senate
faculty meeting should be excluded. The Court
agrees with Defendant that any such evidence
would be hearsay. The Court has reviewed the
audio recording of the faculty senate meeting. It
is clear that the relevant subject matter of that
meeting was that, generally, FAU policies were
confusing, that FAU was improperly applying
that policy to the faculty, and that the faculty
thought that FAU should cease and desist from
its administration of that policy.
The Court is unable to discern how that evidence
could be offered in any way other than to prove
the truth of the matter and, as a result, Plaintiff
would have to proffer a hearsay exception
for this evidence to be admitted. Plaintiff
argues that faculty member statements were
admissions by a party opponent. The mere
fact that some of the faculty members had
administrative duties does not mean that the
faculty members are empowered in the course
of their duties to determine whether a policy is
confusing, whether it is being applied correctly,

52a
Appendix B
and whether the policy should continue to
be applied. The operative inquiry for this
Court is whether the hearsay declarants were
speaking within the scope of his or her agency
or employment. City of Tuscaloosa v. Harcross
Chemicals, Inc., 158 F.3d 548, 557 (11th Cir.
1998).
For example, in Staheli v. University of
Mississippi, 854 F.2d 121, 127 (5th Cir. 1988),
statements made to a Plaintiff professor by
a professor that was a member of the faculty
senate were not admissions of a party opponent
because the senate professor “had nothing to
do with Plaintiff’s tenure decision” and “did
not concern a matter within the scope of his
agency.”
The Defendant’s motion on this point is therefore
granted. For Plaintiff to be able to admit this
hearsay evidence, Plaintiff would have to
proffer to the Court evidence that the faculty
members’ duties included the administration of
the FAU policy, such that their comments were
within the capacity of their relationship with
FAU. See Wilkinson v. Carnival Cruise Lines,
Inc. 920 F.2d 1560, 1565 (11th Cir. 1991). This
is quoting, “it is necessary, in order to support
admissibility, that the content of the declarant’s
statement concerned a matter within the scope
of the agency.”

53a
Appendix B
At present, the Court is unable to discern any
evidentiary basis for which the comments at
the senate faculty meeting, helpful and relevant
to Plaintiff, would be within the agency and
scope of the declarant’s duties. Although the
Court acknowledges that theoretically, perhaps,
Plaintiff could proffer additional evidence such
that certain statements at the senate faculty
meeting could qualify as admissions of a party
opponent, the Court’s granting of Defendant’s
motion on this point is not without prejudice,
it is with prejudice for the following reasons:
The Court notes that the majority of the faculty
senate meeting recording is not relevant. Much
of that recording concerns the university’s
efforts at outside community activities, and
frustrations that various faculty members
had about specific communications from FAU
that have no bearing on this case. The Court
excludes all such evidence as irrelevant.
To the extent that Plaintiff would attempt to
admit the audio recording or otherwise elicit
testimony about the statements at the senate
faculty meeting on relevant matters, the Court
concludes the probative value of that evidence is
outweighed by danger of confusion of the issues
and unfair prejudice. As to the probative value,
the Court has already noted and ruled that the
probative value of confusion about FAU policies
is limited. In connection therewith, Plaintiff has

54a
Appendix B
ample grounds through various witnesses to
elicit testimony about faculty confusion about
the policy. In contrast, the unfair prejudice and
danger of confusion is substantial.
The faculty members at the senate meeting
were angry. Much frustration can be heard in
the recording. That frustration and anger, and
the faculty members’ reactions and discussion
of the FAU policy, were framed by issues and
communications entirely irrelevant to this case.
For example, one faculty member was upset
that he had received an email pertaining to his
outside speech, and other faculty members at
the meeting tried to support him. Thus, to the
extent the faculty meeting did discuss matters
somewhat relevant to this case, the FAU policy
for outside activity disclosures, that discussion
was framed and developed in an emotional,
heated context completely irrelevant to this
case.
The Court concludes that this evidence, even
if otherwise admissible, is unfairly prejudicial
to Defendant and could confuse the jury. For
this reason and all of the foregoing reasons,
Defendant’s motion is granted insofar as
Plaintiff is excluded from introducing testimony
pertaining to the FAU senate faculty meeting
or from introducing the audio recording of
the senate faculty meeting, Plaintiff’s Exhibit
67. Plaintiff’s exhibits related to the audio

55a
Appendix B
recording, Exhibits 27, 28 and 106 are also
excluded.
DE 465 at 55-58.13 Finally, Plaintiff’s argument that a
witness opened the door to the admission of the audio
recording is without merit. Plaintiff relies upon the
following testimony:
Q. And so, what options did Dr. Tracy have if
he didn’t agree that his memoryhole blog was
a reportable outside activity?
A He could have asked -- if he felt this was
undue, he could have asked the university
faculty senate, as a due process, he could have
asked them to review the situation. He could
have responded to this proposed grievance
--proposed Notice of Discipline Termination.
He could have -- he could have grieved the
termination with the United Faculty of Florida
independently or with an attorney.
DE 469 at 39. This witness (Diane Alperin) did not
reference the senate faculty meeting recording, confusion
at the senate, discussions at the senate, or any other issue
implicated by the recording. Ms. Alperin merely stated
that Plaintiff had certain administrative avenues available
to him in lieu of refusing to comply with FAU’s insistence
that he complete an outside activities form. Even if
13. The Court also notes that the recording contained legal
opinions and legal conclusions.

56a
Appendix B
certain members of the senate faculty were unhappy
with FAU’s policies or personally thought the policies
were confusing, this fact does not call into question Ms.
Alperin’s statement that the senate faculty was an avenue
through which Plaintiff could air his grievances.
For the foregoing reasons, Plaintiff’s Motion for New
Trial is denied as to any argument pertaining to the
Court’s exclusion of the senate faculty audio recording,
together with related exhibits.
C. The Court’s Exclusion of Letters Authored by
Constitutional Rights Groups
Plaintiff argues that he is entitled to a new trial
because the Court excluded two letters from constitutional
rights groups expressing their support for Plaintiff in the
year 2013. The exclusion of those letters, which contained
legal conclusions and were written years before Plaintiff’s
termination, did not affect Plaintiff’s substantive rights
at trial. Furthermore, in recognition that Plaintiff was
seeking to introduce those letters to show the affect the
letters had on FAU officials, the Court did not prevent
Plaintiff from introducing evidence of the same through
another form:
MR. BENZION: The letters from FIRE are
not being offered for their truth, but for the
effect on the listener. FIRE are letters that will
come up, 10-A and 10-B, 10-B being in Exhibit
36. These letters are written by constitutional
rights groups in response to the discipline on the
Plaintiff in 2013, and subsequent to receiving

57a
Appendix B
these letters, the Defendant university backed
down from their discipline and entered into a
settlement agreement with the Plaintiff.
THE COURT: Okay, I understand. I am not
going to allow it, it is hearsay. I understand you
don’t want it for the truth of the matter, but it
seems to me you can accomplish the same goal
by questioning whoever the witness is whom
you would question about, you know, did you
receive a letter from such and such on such and
such date, you know, what action did you take
as a result of that letter. So, there would be a
way to accomplish what you need to accomplish
without bringing in a letter which, although you
are representing that it is not being offered for
the truth of the matter, that is always a hard
thing when you are giving a limiting instruction
to a jury that, and it is absolutely a hearsay
document, the prejudicial effect is outweighing
the probative value when considering that the
same goal can be accomplished by the Plaintiff
through proper questioning of proper witnesses
as to when and what witnesses received and
how they responded as a result of receiving
certain things.
DE 465 at 78-79. Accordingly, Plaintiff did introduce
evidence that the letters were received:
Q. Dr. Tracy, did you receive letters in support
of your defense of this notice of discipline and
after receiving the notice of discipline in 2013?

58a
Appendix B
A. In April of 2013, yes.
Q. What effect did those letters have on you,
if any?
A. It galvanized my belief that I was correct in
my assertions that the disclaimer on my blog
was sufficient and satisfactory.
Q. Did anyone else receive the letters, if you
know?
A. Yes.
Q. Who?
A. Who were the letters cc’d to?
Q. Yes.
A. Dean Heather Coltman and Provost Diane
Alperin and several members of the Florida
Atlantic University Board of Trustees, and
President Saunders, who was at the time
President of Florida Atlantic University, Mary
Saunders.
DE 466 at 118-19. Plaintiff’s objection is that “Plaintiff’s
testimony would have been far more credible had the jury
knew [sic] that credible civil rights groups came to his aid.”
DE 453 at 11. The Court concludes that the authorship
or content of the letters, written years before Plaintiff’s
termination, would have had no impact on the great weight

59a
Appendix B
of the evidence in this case, which favored Defendants,
nor did the exclusion of the letters affect the substantive
rights of Plaintiff. Accordingly, Plaintiff’s Motion for New
Trial is denied as to any argument premised upon the
aforementioned letters.
For all of the foregoing reasons, Plaintiff’s Motion for
New Trial is denied.
D. Plaintiff’s Renewed Motion for Judgment as a
Matter of Law
For the same reasons the Court has denied Plaintiff’s
Motion for New Trial, the Court also denies Plaintiff’s
Renewed Motion for Judgment as a Matter of Law.
E. Plaintiff’s Third Motion for Reconsideration
Defendants previously moved for summary judgment
as to Plaintiff’s claim that FAU’s outside activity policy is
unconstitutional. Defendants argued that Plaintiff could
not challenge the constitutionality of the policy because,
pursuant to his collective bargaining agreement, he was
required to file a grievance before litigating the matter
in court. In support of their argument, Defendants relied
upon Hawks v. City of Pontiac, 874 F.2d 347, 349 (6th Cir.
1989). That case was analogous to the instant case, and
this Court relied upon Hawks as follows:
In Hawks, the plaintiff was an employee of
a police department. Id. at 348. The plaintiff
moved his residence out of the city in which he
worked. Id. The plaintiff’s collective bargaining

60a
Appendix B
agreement required police officers to maintain
residency in the city and, as a result of the
plaintiff ’s decision to move his residence,
he was demoted. Id. at 348-49. The plaintiff
challenged the residency requirement as being
unconstitutionally vague. Id. The district court
in Hawks granted summary judgment in
favor of the defendant by concluding that the
contractual provision could not be challenged as
unconstitutionally vague in the same manner as
positive law. Id. The appellate court affirmed,
finding: “As a contract provision entered into
through voluntary collective bargaining, it may
not be characterized as a positive law subject
to due process challenge for vagueness. Its
interpretation and clarification is subject to the
grievance and arbitration process.” Id.
Notably, the plaintiff in Hawks had a stronger
basis to argue that his collective bargaining
agreement terms were subject to a constitutional
challenge than the Plaintiff in the instant
case. In Hawks, the plaintiff argued that the
residency requirement originated from the
city’s charter, and had only been incorporated
into his collective bargaining agreement. Id. at
349. The Hawks court rejected that argument,
and no such nuance exists in the instant case.

61a
Appendix B
DE 362 at 19.14 When Plaintiff filed his response to
Defendants’ Motion for Summary Judgment, Plaintiff
limited his discussion of Hawks to two sentences: “In
Hawks v. City of Pontiac, the Sixth Circuit affirmed
summary judgment after concluding that the plaintiff
‘has not demonstrated that’ procedures used in the past
would be futile in this case.” 874 F. 2d 347, 351 (6th Cir.
1989). That is not the case here.” DE 275 at 4-5. Plaintiff’s
analysis of Hawks was therefore extremely limited, and
the Court accepted Defendants’ argument as follows:
Plaintiff argues that the holding in Hawks
should not apply to his case because, if he
had grieved, his grievance would have been
futile. The Court does not ag ree. Here,
Plaintiff alleges that the terms of the Policy
are “overbroad and vague . . . do[] not serve
a significant governmental interest . . . [and
are] so vague and overbroad, persons of
common intelligence must necessarily guess
at its meaning and differ as to its application.”
DE 93 at 44. If Plaintiff had challenged the
vagueness of the Policy by filing a grievance,
the Court would have the benefit of evaluating
the official rationale, purpose, and scope of the
Policy through that grievance procedure—the
plaintiff in Hawks complied with his grievance
procedures and the court had the benefit of the
14. While Plaintiff pointed out at trial that there are employees
at FAU who are subject to FAU’s outside activities policy that are not
bound by the dispute resolution procedures of Plaintiff’s collective
bargaining agreement, those employees are not before this Court.

62a
Appendix B
underlying record. Regardless of Plaintiff’s
reasons for failing to grieve, that fact remains
that Plaintiff did not file a grievance. A
grievance was required. DE 243-1 at 134-36; see
generally DE 246-6. While Plaintiff may have
subjectively believed that his desired outcome
would have been a futile goal if he grieved, the
grievance procedure would have enabled the
Court to evaluate FAU’s implementation of the
scope, purpose, and terms of the Policy.
On this issue, Plaintiff conflates the relief
he seeks. Plaintiff’s contention that he was
advised that his employment situation was not
grievable (DE 275 at 6) is not germane to the
relief Plaintiff seeks through his vagueness
challenges. Plaintiff seeks a declaration that
the terms of the Policy are unconstitutionally
vague. Any such declaration by the Court would
have a far-reaching impact beyond Plaintiff’s
individual employment circumstances and
would be directly tied to the wording and
implementation of the Policy generally. Plaintiff
has not shown or cited any evidence to this
Court that it would have been futile to file a
grievance to establish the rationale, purpose,
and scope of the Policy.
DE 362 at 19-20.
After the Court’s decision, Plaintiff filed a motion for
reconsideration. For the first time, Plaintiff discussed
Hawks, and attempted to distinguish it. The Court

63a
Appendix B
denied the motion for reconsideration on many different
grounds, each of which is set forth at docket entry 383.
The Court need not restate those grounds here. For
reasons the Court could not discern, Plaintiff moved for
reconsideration a second time at the conclusion of trial,
styling the motion for reconsideration as a motion for
judgment as a matter of law. Now, Plaintiff has moved for
reconsideration a third time, styling the request as part
of his renewed motion for judgment as a matter of law.
Because Plaintiff has styled his third motion for
reconsideration as part of his renewed motion for
judgment as a matter of law, the Court is uncertain how
the motion should be treated. If Plaintiff’s intent was
solely to move for reconsideration of the Court’s Order
on Summary Judgment for a third time, the Court denies
that request for all of the reasons set forth in the Court’s
Order on Summary Judgment and also at docket entry
383 in the Court’s order denying Plaintiff’s first motion
for reconsideration. If Plaintiff’s intent was to move for
judgment as a matter of law on his constitutional claims
a second time, the Court denies that request as well
because the Court cannot agree with Plaintiff, for all of the
reasons set forth above, that “the record unquestionably
establishes that FAU implemented a government
policy, in the form of the conflict of interest Policy, that
unconstitutionally chilled the speech of Plaintiff and
others.” DE 450 at 18 (emphasis added).
The Court addresses three final points. First, Plaintiff
criticizes the Court’s decision on the grounds that no
court, besides the instant Court, has cited Hawks for the
proposition outlined in the Court’s prior order on summary

64a
Appendix B
judgment. As best as the Court’s research can discern,
this is because no collective-bargaining-plaintiff—besides
the instant Plaintiff—has ever tried to challenge a
policy sourced in a collective bargaining agreement as
unconstitutionally vague without first exhausting the
governing dispute procedures in the applicable collective
bargaining agreement. Plaintiff certainly has provided no
case law that supports his challenge here in the context
of his failure to comply with his collective bargaining
agreement. Instead, Plaintiff’s authority may establish the
opposite. Plaintiff cites to Gilson v. Pennsylvania State
Police, 676 F. App’x 130 (3d Cir. 2017), but in that case
the plaintiff arbitrated his adverse employment action
before filing suit in court. Plaintiff cites to Hamilton v.
USPS, 746 F.2d 1325 (8th Cir. 1984), but in that case the
plaintiff also grieved his adverse action before filing suit
in court. Indeed, there are a number of cases in which a
plaintiff has challenged the constitutionality of a policy
after exhausting collective bargaining procedures or,
alternatively, when no collective bargaining procedures
apply. E.g., Hawks. The Court was unable to locate any
analogous authority to the contrary, and Plaintiff has
provided none.
Second, the Court is unable to make any sense of
Plaintiff’s argument that “[s]ubstantive 1983 claims such
as these challenging a governmental policy on First
Amendment grounds do not need to be grieved.” DE 450 at
20.15 Defendants have never sought to preclude Plaintiff’s
15. As with Plaintiff’s prior briefing on this subject, the cases
that Plaintiff cites are not on-point. Plaintiff cites to Patsy v. Florida,
457 U.S. 496, 102 S. Ct. 2557, 73 L. Ed. 2d 172 (1982), but that case
did not concern a challenge to the constitutionality of a policy in a

65a
Appendix B
First Amendment section 1983 claim on failure-to-grieve
grounds. Defendants have repeatedly stated the same
in filings in this Court. E.g., DE 455 at 11. Plaintiff’s
First Amendment section 1983 claim was presented to
the jury. Plaintiff’s confusion, and his exercise of free
speech under the parameters of FAU’s policies and the
collective bargaining agreement, were the central issue
at trial. While Plaintiff may have included a reference to
42 U.S.C. § 1983 in his constitutional challenges against
FAU’s policies, section 1983 “is not itself a source of
substantive rights,” but merely provides “a method for
vindicating federal rights elsewhere conferred.” Baker
v. McCollan, 443 U.S. 137, 144 n.3, 99 S. Ct. 2689, 61
L. Ed. 2d 433 (1979). Just as section 1983 claims do not
require the exhaustion of administrative procedures,
constitutional challenges to positive, enacted law also
have no exhaustion requirement. There is no exhaustion
requirement to attack the constitutionality of a Florida
statute. But contractual terms are not the same as positive
law, and Plaintiff did not challenge the constitutionality of
a state statute or some other enacted, positive law. E.g.,
Stover v. U.S., No. 1:04CR298, 2007 U.S. Dist. LEXIS
21804, 2007 WL 928643 (“Positive law is defined as ‘a
system of law promulgated on and implemented within a
particular community by political superiors . . . . Positive
law typically consists of enacted law—the codes, statutes,
and regulations that are applied in the courts.’” (quoting
Black’s Law Dictionary (8th ed.))).
collective bargaining agreement; Patsy is a discrimination case in the
context of employment law. Similarly, Plaintiff cites to Narumanchi
v. Connecticut State University, 850 F.2d 70 (1988), but that case is a
Title VII case—Narumanchi had nothing to do with a challenge to
the constitutionality of a policy in a collective bargaining agreement.

66a
Appendix B
Plaintiff challenged the constitutionality of FAU
policies sourced in the contract terms of a collective
bargaining agreement that he agreed to.16 Plaintiff’s
own words, contained in his own pleading, confirm that
his challenge is sourced in the collective bargaining
agreement: “You have recommended that I complete
a ‘Report of Outside Employment/Activity Form’ in
accordance with the BOT/UFF Collective Bargaining
Agreement.” DE 93 at 17-18. Plaintiff’s challenge rested
on the premise that terms in the collective bargaining
agreement, together with FAU’s implementation of the
same, were too vague. The Court has been unable to
locate an example of a vagueness challenge against a
collective bargaining agreement wherein the plaintiff did
not first exhaust his administrative remedies. Plaintiff has
provided no authority for the proposition that by inserting
a reference to 42 U.S.C. § 1983 in the pleading of his
contractual challenge that he is relieved of the obligation
to comply with the terms of the grievance procedure in
the very agreement he is challenging as vague, nor did
Plaintiff distinguish the case law cited by the Court,
Hawks, for the proposition that Plaintiff is not relieved
of his requirement to grieve.17
16. Plaintiff ’s constitutional challenge was focused and
construed as seeking a declaration that FAU’s policies were
unconstitutional, together w ith related injunctive relief, as
exemplified by Plaintiff’s request for relief: “[T]his Court [should]
issue an Order declaring that [the policy] is unconstitutional . . . .
[Plaintiff] is entitled to declaratory relief [and] injunctive relief.”
DE 93 at 49-50.
17. The Court also stands by its decision on summary judgment
that Plaintiff’s “as-applied” challenge is not ripe for judicial review.

67a
Appendix B
Third and perhaps most importantly, the Court is
unable to ascertain how Plaintiff has standing to pursue
his constitutional claims. Assuming, for the sake of
argument, that the Court were to reinstate Plaintiff’s
constitutional challenge and permit a trial on those claims,
the jury’s verdict in Plaintiff’s original trial binds Plaintiff.
As a result of the jury’s verdict, it is no longer possible for
Plaintiff to be reinstated to his former position at FAU by
this Court. Thus, while Plaintiff had standing to argue
that FAU policies were unconstitutional at the onset of
this case, the jury’s verdict has had the result of Plaintiff
losing his standing to make that argument. This case is
like Lopez v. Garriga, 917 F.2d 63 (1st Cir. 1990). In Lopez,
the jury returned a verdict that found that the plaintiff’s
rights had not been violated by the defendant. Id. at 66.
After the verdict, Plaintiff sought injunctive relief. The
appellate court held:
A court can only grant permanent injunctive
relief to a plaintiff who has met certain
preconditions. The first of these implicates the
doctrine of standing; an injunction-seeking
plaintiff must establish that he “‘has sustained
or is immediately in danger of sustaining some
direct injury’ as the result of the challenged
official conduct and the injury or threat of
injury must be both ‘real and immediate,’ not
‘conjectural’ or ‘hypothetical.’” City of Los
Angeles v. Lyons, 461 U.S. 95, 101-02, 103 S. Ct.
See Digital Properties, Inc. v. City of Plantation, 121 F.3d 586, 589
(11th Cir. 1997).

68a
Appendix B
1660, 75 L. Ed. 2d 675 (1983) (citations omitted).
While Lopez, when he filed this suit, alleged
a claim for injunctive relief which rose to the
level of a case or controversy, a court does not
retain authority to grant an injunction, even
though the plaintiff originally had standing
to ask for one, if during the course of the
proceeding the plaintiff loses his toehold on
the standing ladder.
Id. at 67 (emphasis added). Although in Lopez the second
claim sought injunctive relief, 18 the Court fails to see
how Plaintiff can establish standing for his constitutional
challenge to FAU’s policies as a citizen no longer employed
by FAU. As the Supreme Court set forth in Lujan v.
Defenders of Wildlife, 504 U.S. 555, 562, 112 S. Ct. 2130,
119 L. Ed. 2d 351 (1992):
If [the plaintiff is the object of the asserted
injury], there is ordinarily little question that
the action or inaction [of the government]
caused him injury, and that a judgment
preventing or requiring the action will redress
it. When, however, . . . a plaintiff’s asserted
injury arises from the government’s allegedly
unlawful regulation of someone else, much more
is needed. In that circumstance, causation and
redressability ordinarily hinge on the response
of the regulated (or regulable) third party to the
government action or inaction—and perhaps on
the response of others as well. . . . it becomes
18. One of the claims that Plaintiff seeks to reinstate is a
request for an injunction. DE 93 at 50.

69a
Appendix B
the burden of the plaintiff to adduce facts
showing that those choices have been or will be
made in such manner as to produce causation
and permit redressability of injury.
(emphasis added). Thus, for Plaintiff to have standing to
bring his constitutional claims, he must be able to show
causation between FAU’s unconstitutional policies and
himself—the Court fails to see how Plaintiff could do so
given that he is no longer an employee of FAU and cannot
be reinstated to FAU by this Court. Id. Plaintiff cannot
argue that FAU’s policies caused his termination, because
the jury’s verdict found that Plaintiff’s exercise of free
speech had nothing to do with Plaintiff’s termination.
Instead, the issue squarely before the jury was whether
Plaintiff was terminated as a result of his own actions—
insubordination. Similarly, the Court cannot discern
how Plaintiff could argue that FAU’s policies were so
unconstitutional that those policies caused him to become
insubordinate, which caused his termination, in light of
the fact that (1) every other faculty member complied with
FAU policies, (2) those faculty members did not become
insubordinate while trying to comply with those policies,
and (3) Plaintiff complied with FAU policies in the past
without becoming insubordinate.19
Other standing-related arguments preclude the
reinstatement of Plaintiff’s constitutional claims as well.
The Supreme Court has recognized that constitutional
19. Stated another way, Plaintiff made a deliberate, conscience
choice to engage in insubordination, even when peaceful avenues
were available to him to dispute the constitutionality of FAU’s
policies—avenues Plaintiff chose not to utilize, although he had used
those avenues before.

70a
Appendix B
rights may be waived where the facts surrounding the
waiver make it clear that the party waiving his or her
rights did so voluntarily, with a full understanding of the
consequences of the waiver. Patterson v. Illinois, 487 U.S.
285, 108 S. Ct. 2389, 101 L. Ed. 2d 261 (1988). Factors
courts consider in such a determination are whether the
parties bargained equally, the parties negotiated, and
whether the waiving party was advised by competent
advisors. See Erie Telecomms., Inc. v. Erie, 853 F.2d 1084,
1096 (3d Cir. 1988). Here, not only did Plaintiff agree to the
terms of the collective bargaining agreement as a union
employee, and not only were the terms of the collective
agreement bargained for, but Plaintiff actually served as
the president of the union, voted to ratify the collective
bargaining agreement, and signed the agreement.
DE 246 at 2; DE 274 at 1-2. The collective bargaining
agreement is not so vague and ambiguous that Plaintiff
could not have been aware of the consequences when he
voted for the ratification of the agreement and signed
the agreement on behalf of the union. Thus, to the extent
the collective bargaining agreement restricts Plaintiff’s
ability to engage in outside activities that conflict with his
responsibilities at FAU, or to the extent the agreement
requires Plaintiff to disclose his outside activities to
FAU, Plaintiff knowingly waived a challenge to the
same by virtue of his knowing and intelligent consent to
the terms of the collective bargaining agreement. See
Leonard v. Clark, 758 F. Supp. 616, 619-20 (D. Or. 1991).
Similarly, Plaintiff waived the argument that the terms
of the collective bargaining agreement were vague when
he presided over the union’s adoption and negotiation of
the very same agreement.

71a
Appendix B
III. CONCLUSION
For all of the foregoing reasons, Plaintiff’s Motion for
New Trial [DE 453] and Renewed Motion for Judgment
as a Matter of Law [DE 450] are both DENIED.
DONE and ORDERED in Chambers, Fort Pierce,
Florida, this 24th day of April, 2018.
/s/ Robin L. Rosenberg
ROBIN L. ROSENBERG
UNITED STATES
DISTRICT JUDGE

72a
Appendix
C
APPENDIX C
— OPINION
OF THE
UNITED STATES DISTRICT COURT FOR
THE SOUTHERN DISTRICT OF FLORIDA,
DATED NOVEMBER 11, 2017
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
CASE NO. 9:16-CV-80655-ROSENBERG/HOPKINS
JAMES TRACY,
Plaintiff,
v.
FLORIDA ATLANTIC UNIVERSITY BOARD
OF TRUSTEES A/K/A FLORIDA ATLANTIC
UNIVERSITY, et al.,
Defendants.
OMNIBUS ORDER ON ALL PENDING
MOTIONS FOR SUMMARY JUDGMENT
This is a case with two competing stories. One such
story is by the Plaintiff in this case. Plaintiff brought this
suit alleging that he, a tenured university professor, was
fired from his position because of his exercise of his First
Amendment rights. A second story is told by Plaintiff’s
former employer, a university, together with members of
the university’s faculty. Defendants’ story is that Plaintiff
was fired because he refused to comply with university
policies and procedures.

73a
Appendix C
Before the Court are three motions: Plaintiff ’s
Motion for Partial Summary Judgment [DE 247], and two
Motions for Summary Judgment [DE 242] [DE 245] filed
by Defendants. Each Motion has been fully briefed. For
the reasons set forth below, Plaintiff’s Motion for Partial
Summary Judgment is denied and Defendants’ Motions
for Summary Judgment are granted in part and denied
in part.
I. BACKGROUND AND INTRODUCTION
The Court sets forth below some of the facts in this
case for background purposes. Although the Court has
endeavored to only set forth undisputed facts, to the extent
disputed facts below are germane to the Court’s ultimate
decision, those disputed facts are discussed in the Court’s
analysis section, infra.
Plaintiff, James Tracy, was a tenured professor at
Florida Atlantic University—a Defendant in this case. DE
246 at 1. Plaintiff taught in the School of Communications
and Multimedia Studies. Id. Some of Plaintiff’s courses
included “Public Opinion and Modernity” and “Culture
of Conspiracy.” Id. Plaintiff conducted research in mass
shootings, the JFK assassination, and the Sandy Hook
Massacre—a mass shooting event in which many children
were reported to have been killed. See id.
In December of 2012, Plaintiff began to blog about
the Sandy Hook shooting. DE 248 at 2. Plaintiff’s blog
suggested that the Sandy Hook shooting had never taken
place and was “staged by the government to promote gun

74a
Appendix C
control.” Id. Plaintiff’s blog garnered national attention
and was widely reported by the press. Id. Many people
called on FAU to fire Plaintiff. See id. at 2-9.
In January of 2013, FAU began to have internal
discussions about Plaintiff’s blog. Id. Ultimately, FAU
issued a notice of discipline to Plaintiff pertaining to his
lack of an adequate disclaimer (drawing a distinction
between Plaintiff’s opinions and FAU’s opinions) on
his blog. Id. at 3. Plaintiff’s union defended him. Id.
The parties eventually reached an agreement wherein
Plaintiff used a disclaimer on his blog that was to FAU’s
satisfaction. Id. at 4.
After Plaintiff amended the disclaimer on his blog, he
continued to teach courses at FAU. DE 246 at 5. In October
of 2015, however, a new dispute—a contractual dispute—
arose between the parties. Id. at 6. FAU has a Collective
Bargaining Agreement (the “CBA”) with its faculty. Id. at
2. The CBA contains many terms and conditions, including
an article entitled “Conflict of Interest/Outside Activity.”
Id. This article, hereinafter referred to as the “Policy,”
imposes certain conditions upon faculty members. DE at
131-33. One such condition of the Policy is that “[c]onflicts
of interest are prohibited.” Id. at 131. A conflict of interest
is defined as:
(1) any conflict between the private interests
of the employee and the public interests of
the University, the Board of Trustees, or the
State of Florida, including conflicts of interest
specified under Florida Statutes;

75a
Appendix C
(2) any activity which interferes with the full
performance of the employee’s professional or
institutional responsibilities or obligations; or
(3) any outside teaching employment with any
other educational institution during a period in
which the employee has an appointment with
Florida Atlantic University, except with written
approval of the Dean.
Id. The Policy also imposes certain reporting requirements
upon faculty, including the following:
An employee who proposes to engage in outside
activity shall provide his or her supervisor a
detailed written description of the proposed
activity. The report shall include where
applicable, the name of the employer or other
recipient of services; the funding source; the
location where such activity shall be performed;
the nature and extent of the activity; and any
intended use of University facilities, equipment,
or services. A new report shall be submitted
for outside activity previously reported at the
beginning of each academic year for outside
activity of a continuing nature and whenever
there is a significant change in an activity
(nature, extent, funding, etc.) The reporting
provisions of this section shall not apply to
activities performed wholly during a period in
which the employee has no appointment with
the University. Any outside activity which

76a
Appendix C
falls under the provisions of this Article and in
which the employee is currently engaged but
has not previously reported, shall be reported
within sixty (60) days of the execution of this
Agreement and shall conform to the provisions
of this Article.
Id. at 132. Importantly for this case, the CBA contains a
mandatory grievance procedure that a faculty member
must use if the member has a grievance with any portion
of the CBA, including the disclosure Policy. Id. at 133.
In October of 2015, Plaintiff was completing an
electronic acknowledgment form that FAU had sent to
him. DE 246 at 6. That form required Plaintiff to check
a box “acknowledging [his] obligation to report outside
activities” as well as other things. Id. Plaintiff refused
to check the box. Id. Instead, Plaintiff printed out a hard
copy of the form and submitted it to FAU without checking
the box. Id.
Also in October of 2015, an FAU supervisor ordered
Plaintiff to report his outside activities by completing and
submitting a conflict of interest form. See DE 248 at 5.
Plaintiff does not appear to dispute that he was ordered
to complete the conflict of interest form multiple times by
his supervisors. See DE 274 at 5-6.1 In lieu of completing
the form in the manner in which FAU required, Plaintiff,
in his own words, “asked his supervisors for clarification
1. Instead, it appears that Plaintiff’s position is that he complied
with his supervisor’s directives by submitting a hard copy of the
online form that did not contain a checkmark in the applicable box.

77a
Appendix C
about the scope and application of the Policy” and he also
required from FAU “a signed statement asserting FAU’s
position that his personal activities (media criticism,
alternative journalism, and blogging) did not fall within
the definition of ‘conflict of interest’” under the Policy.
DE 248 at 5.
On November 10, 2015, Defendants issued a notice of
discipline to Plaintiff. Id. The notice required Plaintiff
to submit conflict of interest forms within forty-eight
hours. Id. On November 22, 2015, Plaintiff responded by
letter, informing Defendants that he had not received the
clarification that he had requested on the “considerable
confusion” created by FAU’s administration of the Policy.
Id. On December 11, 2015, Defendants responded to
Plaintiff’s letter by informing him that he had until 5:00
p.m. on December 15, 2015, to “completely and accurately
fill out the conflict of interest forms.” Id. at 7. Plaintiff
appears to admit that he did not submit the forms by 5:00
p.m. on December 15, 2015. Id. (“Tracy did not receive [the
e-mail] until the evening of December 15, 2015.”).
On December 16, 2015, Defendants issued a notice of
termination to Plaintiff. Defendants’ position was that
because Plaintiff had refused to fill out his conflict of
interest forms, Defendants could not ascertain whether
Plaintiff was in compliance with the Policy (pertaining to
outside activities) in the CBA. Id.
Earlier, sometime during the month of November of
2015, Plaintiff requested assistance from his union. DE
246 at 7. Plaintiff’s union hired an attorney for Plaintiff.

78a
Appendix C
Id. at 8. After Plaintiff received his notice of termination,
Plaintiff was required to file a grievance contesting his
termination within ten days. Id. Plaintiff’s attorney
negotiated for an extension for additional time to grieve.
See id. The extension was granted. Id. at 9. Plaintiff never
filed a grievance. Instead, Plaintiff filed this lawsuit on
April 25, 2016.
Initially, Plaintiff filed this lawsuit against FAU,
certain individual Defendants at FAU, his union, and
certain individual Defendants at his union. During
the pendency of this suit, however, Plaintiff reached a
settlement agreement with all union Defendants. Only
FAU and the FAU individual Defendants remain. The
individual Defendants are John Kelly, the FAU President,
Diane Alperin, an FAU Vice Provost, and Heather
Coltman, an FAU Dean. The following counts are before
the Court: a civil rights retaliation claim pertaining to
Plaintiff’s right to free speech (Count I), a claim alleging
a conspiracy to interfere with Plaintiff’s civil rights (Count
II), a facial constitutional challenge against the Policy
(Count III), an as-applied constitutional challenge against
the Policy (Count IV), a request for a declaration on the
constitutionality of the Policy (Count V), and a breach of
contract claim (Count VI).
II. SUMMARY JUDGMENT STANDARD
Summary judgment is appropriate if “the movant
shows that there is no genuine dispute as to any material
fact and the movant is entitled to judgment as a matter
of law.” Fed. R. Civ. P. 56(a). The existence of a factual

79a
Appendix C
dispute is not by itself sufficient grounds to defeat a motion
for summary judgment; rather, “the requirement is that
there be no genuine issue of material fact.” Anderson
v. Liberty Lobby, Inc., 477 U.S. 242, 247-48, 106 S. Ct.
2505, 91 L. Ed. 2d 202 (1986). A dispute is genuine if “a
reasonable trier of fact could return judgment for the
non-moving party.” Miccosukee Tribe of Indians of Fla. v.
United States, 516 F.3d 1235, 1243 (11th Cir. 2008) (citing
Anderson, 477 U.S. at 247-48). A fact is material if “it
would affect the outcome of the suit under the governing
law.” Id. (citing Anderson, 477 U.S. at 247-48).
In deciding a summary judgment motion, the Court
views the facts in the light most favorable to the nonmoving party and draws all reasonable inferences in
that party’s favor. See Davis v. Williams, 451 F.3d 759,
763 (11th Cir. 2006). The Court does not weigh conflicting
evidence. See Skop v. City of Atlanta, 485 F.3d 1130, 1140
(11th Cir. 2007). Thus, upon discovering a genuine dispute
of material fact, the Court must deny summary judgment.
See id.
The moving party bears the initial burden of showing
the absence of a genuine dispute of material fact. See
Shiver v. Chertoff, 549 F.3d 1342, 1343 (11th Cir. 2008).
Once the moving party satisfies this burden, “the
nonmoving party ‘must do more than simply show that
there is some metaphysical doubt as to the material facts.’”
Ray v. Equifax Info. Servs., LLC, 327 F. App’x 819, 825
(11th Cir. 2009) (quoting Matsushita Elec. Indus. Co.,
Ltd. v. Zenith Radio Corp., 475 U.S. 574, 586, 106 S. Ct.
1348, 89 L. Ed. 2d 538 (1986)). Instead, “[t]he non-moving

80a
Appendix C
party must make a sufficient showing on each essential
element of the case for which he has the burden of proof.”
Id. (citing Celotex Corp. v. Catrett, 477 U.S. 317, 322, 106
S. Ct. 2548, 91 L. Ed. 2d 265 (1986)). Accordingly, the
non-moving party must produce evidence, going beyond
the pleadings, to show that a reasonable jury could find in
favor of that party. See Shiver, 549 F.3d at 1343.
III. ANALYSIS
The Court addresses Plaintiff’s Motion for Summary
Judgment and Defendants’ Motions for Summary
Judgment by considering each count in turn. After
analyzing each count, the Court considers the individual
Defendants’ argument that they should be dismissed from
this case.
A. Plaintiff’s Count I — First Amendment Retaliation
For Plaintiff to establish a prima facie case for
his First Amendment claim, he must show: (1) that
his speech may be fairly characterized as constituting
speech on a matter of public concern, (2) that Plaintiff’s
First Amendment interests outweigh the interest of his
employer in promoting the efficiency of the public services
it performs through its employees, and (3) that Plaintiff’s
speech played a substantial part in Defendants’ decision
to terminate Plaintiff. If Plaintiff proves the foregoing,
then (4) the burden shifts to Defendants to prove that they
would have taken the same action against Plaintiff even
in the absence of any protected speech. Morgan v. Ford,
6 F.3d 750, 754 (11th Cir. 1993). The Court examines each
element of Plaintiff’s claim.

81a
Appendix C
The Characterization of Plaintiff’s Speech
Plaintiff contends that his constitutionally-protected
speech is his blog postings. He characterizes his blogs
as his observations, opinions, thoughts and viewpoints
on government, the media, current events, history and
politics. DE 248 at 2. Specifically, Plaintiff blogged about
events in the national news media, including mass casualty
events. Id. Plaintiff contends that he blogged from home
during personal time on his personal computer. Id. Private
speech on matters of public concern is protected by the
First Amendment. Connick v. Myers, 461 U.S. 138, 103
S. Ct. 1684, 75 L. Ed. 2d 708 (1983).
Defendants contest the characterization of Plaintiff’s
speech.2 Defendants argue that Plaintiff’s blogs overlapped
with his work for FAU and that Plaintiff used FAU
resources for his blog postings. DE 270 at 2. Defendants,
inter alia, point to similarities between Plaintiff ’s
courses and Plaintiff ’s blog; Defendants therefore
contest that Plaintiff blogged as a private citizen and
instead characterize Plaintiff’s speech as that of a public
employee. See id. “Government employers, like private
employers, need a significant degree of control over their
employees’ words and actions; without it, there would be
little chance for the efficient provision of public services.”
Garcetti v. Ceballos, 547 U.S. 410, 418, 126 S. Ct. 1951, 164
L. Ed. 2d 689 (2006).
2. Although Defendants’ legal arguments on this point are quite
brief, the Court does not construe Defendants’ brief arguments as a
concession or admission. Instead, Defendants have cited evidence to
refute Plaintiff’s evidence on this issue. See DE 270 at 2.

82a
Appendix C
The Court concludes that each side has evidence
supporting their respective positions and, as a result, a
dispute of material fact precludes summary judgment on
the issue of how Plaintiff’s speech should be characterized.
Each party’s Motion for Summary Judgment is denied as
to this issue.
The Balancing of Plaintiff’s Speech with Defendants’
Interest in Promoting the Efficiency of the Services
it Performs through its Employees
With respect to the balancing of Plaintiff’s speech with
Defendants’ interests, this is an issue only tangentially
briefed by all parties. For Plaintiff’s part, Plaintiff
assumes (in a footnote) in a cursory fashion that
Defendants are estopped from raising any such argument.
DE 275 at 9 n.3. For Defendants’ part, Defendants argue
(also in a footnote) that Plaintiff’s speech must be balanced
against the Defendants’ interest in “peacefully fulfilling
its educational mission.” DE 245 at 7 n.3. The Court
declines to grant any relief on this incomplete record, and
each parties’ Motion for Summary Judgment is denied as
to this issue.
Plaintiff’s Speech must have Played a Substantial
Part in Defendants’ Decision to Terminate Plaintiff
The parties vigorously contest whether Plaintiff’s
speech in his blog postings played a substantial part in
causing Defendants’ decision to terminate Plaintiff. The
Defendants rely upon evidence in the record that calls into
question whether FAU’s decision to terminate Plaintiff

83a
Appendix C
was connected to his blog postings. For example, there
were approximately two years between Plaintiff’s most
controversial blog posting—which pertained to Sandy
Hook—and Plaintiff’s termination. See, e.g., id. During
that period of time, FAU permitted Plaintiff to blog
as long as he abided by FAU-required disclaimers. See
id. Defendants have sworn testimony that the basis for
Plaintiff’s termination was his willful refusal to comply
with FAU’s disclosure Policy. See id.
Plaintiff, on the other hand, emphasizes that while he
was permitted to blog during this two-year time period,
FAU was under constant public pressure to fire him. See
DE 248 at 2-4. Plaintiff argues that his controversial
speech was not isolated to a single point in time but rather,
his speech continued to affect Defendants long after his
speech was published. Plaintiff also relies upon evidence
that FAU officials were distressed and embarrassed over
the content on Plaintiff’s blog. See id.
The record facts relevant to this issue are intertwined
with the facts relevant to Plaintiff ’s evidence that
Defendants’ reason for termination was pretextual—
those facts are discussed below. Because of the close
relationship between the facts supporting the third
element—causation—and the facts supporting pretext,
the Court’s ruling pertaining to causation is included in
its analysis pertaining to pretext.

84a
Appendix C
Defendants’ Burden to Prove that they Would have
Taken the Same Action Against Plaintiff even in the
Absence of any Protected Speech
The central issue in this case is why Plaintiff was
terminated. Defendants contend that Plaintiff was
terminated because he willfully refused to comply with
FAU’s policy on the disclosure of outside activities. There
is evidence in the record to support Defendants’ position.
Defendants issued a notice of discipline to Plaintiff
informing him that he was required to comply with the
Policy and that he had not complied. DE 243 at 6. Prior to
being terminated, Plaintiff willfully refused on multiple
occasions to comply with the Policy as FAU required. Id.
at 6-7. Plaintiff’s termination was officially premised on
his refusal to comply with the Policy. Id.
Plaintiff ’s burden to refute Defendants’ nondiscriminatory reason for his termination is substantial.
Plaintiff must take Defendant’s reason “head on and rebut
it” and he cannot succeed by “simply quarreling with the
wisdom of that reason.” Alvarez v. Royal Atl. Dev., Inc.,
610 F.3d 1253, 1265-66 (11th Cir. 2010). Plaintiff must
have evidence that Defendant’s non-discriminatory reason
for firing him was pretextual. Id. at 1264. Plaintiff may
satisfy this burden by showing that Defendants’ reasons
are not credible by demonstrating “such weaknesses,
implausibilities, inconsistencies, incoherencies, or
contradictions in the employer’s proffered legitimate
reasons for its actions that a reasonable factfinder could
find them unworthy of credence.” Id. at 1265. The Court
examines Plaintiff’s evidence of pretext.

85a
Appendix C
That Plaintiff’s blog postings were provocative is, in
Plaintiff’s own words, “an understatement.” DE 247 at 7.
Plaintiff blogged that the Sandy Hook massacre did not
occur and that the families of the victims of that massacre
were “playing a role.” See id.; DE 248 at 2-3. Plaintiff’s
comments resulted in national attention and a backlash
from the parents of the victims at Sandy Hook. DE 248 at
2-6; DE 247 at 7. Parents also alleged, through an op-ed
in the Sun Sentinel, that Plaintiff had harassed them by
asking for proof in connection with the massacre. DE 248
at 6. 3 In the years following Plaintiff’s blog postings about
Sandy Hook, public pressure still existed on FAU to fire
Plaintiff—the controversy surrounding Plaintiff’s blogs
never completely subsided.4 See id. FAU met to discuss
Plaintiff’s blogging and the “impact” of the negative
press. Id. at 2. Certain handwritten minutes indicate that
Plaintiff’s speech was a “black eye on all faculty” and that
in the context of considering Plaintiff’s First Amendment
rights FAU needed to find “winning metaphors.” DE
250-10. The minutes also indicate that there should be
“no email on this.” Id. After Plaintiff was terminated, an
FAU dean circulated an e-mail that read “for the record,
[Plaintiff] was not fired because he didn’t report things.”
DE 250-45.

3. FAU’s decision to fire Plaintiff was made close in time with
the publishing of the op-ed referenced above. See DE 248 at 6.
4. For this reason, the Court finds cases such as Stanley v. City
of Dalton, Ga., 219 F.3d 1280, 1291 (11th Cir. 2000) (finding a four
year temporal gap insufficient to support causation) distinguishable
from the instant case.

86a
Appendix C
The Court is required to view Plaintiff’s evidence
in the light most favorable to him in connection with
Defendants’ Motion for Summary Judgment. Viewed in
Plaintiff’s favor, the evidence outlined above establishes
that (i) Defendants had a powerful motivation to fire
Plaintiff and (ii) Defendants were planning to find a
way to do just that. Defendants’ basis for terminating
Plaintiff—his failure to comply with the Policy—has also
been subjected to reasonable attack by other evidence.
For example, FAU’s administration of the Policy was
altered after FAU reached a settlement with Plaintiff
pertaining to Plaintiff’s use of a disclaimer on his blog.
DE 248 at 4. Perhaps, as Plaintiff contends, FAU altered
its administration of the Policy because its prior efforts to
censor Plaintiff had failed. Defendants arguably knew that
their implementation of the Policy would have the result
of resistance from Plaintiff. On September 4, 2015, FAU
faculty members held a meeting in which several faculty
members voiced concerns over the Policy being applied
to constitutionally protected speech. Id. at 5. Soon after,
Defendants enforced the Policy against the person who
arguably had the most controversial public speech at the
university—Plaintiff. Furthermore, notwithstanding
Plaintiff’s constitutionally-based protests against FAU’s
administration of the Policy, Defendants ultimately
elected not to accept Plaintiff’s untimely effort at full
compliance. When these events are taken in their entirety,
in context, and are viewed in Plaintiff’s favor, a reasonable
inference exists that Defendants altered and enforced
their administration of the Policy against Plaintiff for the
pretextual purpose of finding a way to retaliate against
Plaintiff’s speech.

87a
Appendix C
After a full examination of the record, the Court
concludes that Plaintiff has sufficient evidence to
demonstrate “such weaknesses, implausibilities,
inconsistencies, incoherencies, or contradictions in the
employer’s proffered legitimate reasons for its actions
that a reasonable factfinder could find them unworthy of
credence.” Defendants contest many of the facts relied
upon by the Plaintiff and there is evidence to support
Defendants’ position that Plaintiff was insubordinate.
This juxtaposition of facts serves to highlight the dispute
of material fact that exists as to the reason Plaintiff was
terminated—a factual determination that must be made
by a jury. For the foregoing reasons, each party’s Motion
for Summary Judgment is denied as to Count I, and Count
I survives for trial. 5
B. Plaintiff’s Count II - Conspiracy
Plaintiff’s second count alleges that a conspiracy
existed to terminate Plaintiff from his tenured position.
Under the intra-corporate conspiracy doctrine, FAU
employees cannot conspire amongst themselves or with
FAU. See Dickerson v. Alachua Cty. Comm’n, 200 F.3d
761, 767 (11th Cir. 2000). Thus, Plaintiff argues that a
conspiracy existed between Defendants and Plaintiff’s
union.
Defendants argue that Plaintiff has insufficient
evidence to support his conspiracy claim. In response,
5. The Court also denies Defendants’ request for summary
judgment to be entered in their favor as to Defendants’ failure to
mitigate affirmative defense because of questions of material fact.
Compare DE 246 at 11, with DE 274 at 9-10.

88a
Appendix C
Plaintiff relies upon three points. The first is a timeline.
The second is a quote. The third is a witness. As to
Plaintiff’s first point, Plaintiff contends that an agreement
was reached between his union and FAU to convince
Plaintiff not to file a grievance. He contends that this
agreement was reached at a collective bargaining meeting
on November 30, 2015.6 DE 274 at 10. Prior to meeting,
Plaintiff attests that he was advised by his union that
“anything is grievable.” Id. Subsequent to the meeting,
Plaintiff’s says he was advised by his union that his
situation was “not grievable.” Id.
The mere fact that there was a meeting between
Plaintiff’s union and FAU is not evidence of a conspiracy.
See Lee v. Christian, 221 F. Supp. 3d 1370, 1379 (S.D.
Ga. 2016). Upon review of Plaintiff ’s evidence, the
Court concludes that Plaintiff ’s timeline does not
support Plaintiff’s theory of a conspiracy. The objective,
undisputed evidence establishes the opposite. Plaintiff’s
own allegations establish that his union previously
represented him against Defendants. DE 93 at 15-16.
Plaintiff’s union was successful in that representation.
Id. Plaintiff’s union defended him in connection with
the instant case. DE 246 at 4-5. Plaintiff’s union hired a
lawyer to defend Plaintiff. Id. at 8. Plaintiff’s union and
union-appointed lawyer negotiated for an extension of
time for Plaintiff to file a grievance after the date Plaintiff
alleges a conspiracy was formed. Id. at 8-9; DE 246-16 at
18. Plaintiff was thereafter granted an extension. DE 246
6. Although Plaintiff’s November 30, 2014 date is contested
by Defendants, the Court accepts Plaintiff’s date as true for the
purposes of the Court’s analysis on this issue.

89a
Appendix C
at 9. The fact that Plaintiff’s union doubted a grievance
would lead to a positive result for Plaintiff is not evidence
that Plaintiff’s union was involved in a conspiracy. Thus,
the objective timeline evidence in this case does not
support Plaintiff’s contention that his union was involved
in a conspiracy with Defendants to deny him the right to
grieve his termination.7
As for Plaintiff’s second point, Plaintiff contends
that a union official told a colleague “don’t let [Plaintiff]
respond.” DE 274 at 10. Plaintiff relies upon this quote
for the proposition that the union wanted Plaintiff to be
prevented from filing a grievance. This quote, which is
taken out of context, is a quote with ambiguous meaning.
See DE 274-13. The content of the relevant e-mail concerns
various, unclear matters but no reasonable inference may
be gleaned from the e-mail that it was the union’s intent
to deprive Plaintiff of the right to grieve his termination
due to a conspiracy with Defendants.
Third and finally, Plaintiff relies upon a witness to
support his claim of a conspiracy. Plaintiff cites to the
deposition testimony of Mr. Shane Eason. Mr. Eason
was a colleague of both Plaintiff and certain members
of Plaintiff ’s union. Mr. Eason had a conversation
about Plaintiff with union officials. The contents of that
7. Other evidence, not cited here, establishes that (i) Plaintiff
knew how important it was to file a grievance for his termination,
(ii) Plaintiff chose not to grieve despite this knowledge, (iii) Plaintiff
hired an independent lawyer on his own initiative, and (iv) even
though this new acquisition of counsel was still within the time period
for Plaintiff to file a grievance, Plaintiff did not file a grievance.

90a
Appendix C
conversation were later relayed by Mr. Eason to Plaintiff.
In support of an inference that a conspiracy existed
between Plaintiff’s union and Defendants, Plaintiff
relies in part upon the following quote from Mr. Eason’s
deposition:
Q: Did you tell Professor Tracy that Zoeller [a
union official] worked with FAU’s counsel -- at
least Zoeller told you that he worked with FAU’s
counsel and worked to get rid of Professor
Tracy?
A: Yeah.
DE 246-17 at 23 (emphasis added). The practical effect of
this quote, however, is lessened when placed in the context
of adjacent questions:
Q: Well, my question was whether you told
Professor Tracy that Zoeller said that to you?
A: But I don’t know if Zoeller really said that
to me. I can’t -- you know what I mean like —
Id. (emphasis added). This answer by Mr. Eason, in
which he emphasizes that he cannot remember what
union officials actually said to him, is a consistent theme
throughout entirety of Mr. Eason’ testimony. A second
recurring theme in Mr. Eason’s deposition is that all of the
conversations he had with Plaintiff about a conspiracy were
hypothetical. While Mr. Eason did testify to a certain level
of discomfort with how Plaintiff was personally regarded

91a
Appendix C
by union officials, Mr. Eason repeatedly emphasized that
he was unaware of any conspiracy or criminal wrongdoing
that caused Plaintiff’s termination:
Q: So, Zoeller detailed to you in your confidence
that there was some kind of conspiracy that he
was involved in or there was something he was
involved in that was centered on getting rid of
Professor Tracy?
A: Again, I don’t -- the word conspiracy is not
one that he used.
Q: Without using the word conspiracy though, he
described a plot or some kind of an agreement
to end Professor Tracy’s employment, yes or no?
A: I don’t recall that. Like I said, he didn’t like
Jim and he was tired and frustrated by the
whole thing.
Q: That’s what Zoeller told you?
A: Yeah.
Q: Among other things. It’s not all he said,
right?
A: That’s -- Yeah, some of the stuff I can recall.
Yeah.
...

92a
Appendix C
Q: When he described -- When I say he, I’m
referring to Zoeller. When Zoeller described
his dealings with FAU’s lawyer, it was not
just shoot-from-the-hip small talk. He was
describing his efforts to end Professor Tracy’s
employment, yes or no?
A: He was telling me that.
Q: I’m asking whether Zoeller told -- when he
was describing his relationship with Larry
Glick [FAU counsel], it wasn’t a conversation
about Larry Glick.
A: Right.
Q: It was a conversation about Professor Tracy.
A: They would have off the cuff conversations
about Jim, yeah.
Q: That’s what Zoeller told you?
A: Right.
Q: Zoeller told you that Glick and Zoeller were
communicating about Tracy’s employment, yes?
A: The communication I don’t know where
it went, but these meetings or whatever to
collective bargaining, during downtime they
would chat. That’s really the set—

93a
Appendix C
Q: About Tracy?
A: Yeah, about -- Yeah, about Jim and about —
...
Q: Would you agree with the characterization
of whatever Zoeller and Glick did outside of the
collective bargaining realm was unlawful, the
way that he described it to you?
A: I don’t know where it would fall under the
law.
Q: Did it sound wrong?
A: Ethically.
Q: What Zoeller conveyed to you was ethically
wrong in your opinion?
A: It could be, yeah.
Id. at 25. This evidence is further attenuated by other
deposition testimony in which Mr. Eason was emphatic
that any discussion he may have had with Plaintiff about
how and why Plaintiff was terminated was hypothetical:
Q: So, to the best of your recollection today what
exactly did you tell Professor Tracy about your
conversation with Zoeller?

94a
Appendix C
A: The conversation I had back then with Jim
would have been regarding the blog, regarding
the frustration with Zoeller and the blog and the
whole situation and telling Jim that Zoeller just
doesn’t really care for what it is that he’s doing.
Q: And are you saying that you didn’t tell
Professor Tracy that Zoeller put the fix in on
him?
A: I don’t recall saying that.
Q: You know what I’m asking.
A: Right.
Q: You understand what -- when I said fix?
A: I understand, yeah, yeah.
Q: Sabotage —
A: Right.
Q: Railroad, there’s a lot of ways we can
describe it, but my question is do you remember
telling Professor Tracy that had Zoeller had it
out for him, you know?
A: We hypothesized about this stuff. We talked
about it.

95a
Appendix C
Q: So, you are saying that you were speaking
abstractly and posing hypotheticals about what
happened?
A: Yeah.
...
Q: Okay. And you said you were hypothetically
speculating?
A: Spec -- Yeah.
Q: And so, were you talking about actual
conversations you had had with Zoeller or just
speculating as to what Zoeller’s actions may
have been?
A: It was more I think speculation than
anything
Id. at 21, 24.
For Plaintiff’s conspiracy claim to survive summary
judgment, Plaintiff must set forth specific facts that show
there is a genuine issue for trial. Anderson v. Liberty
Lobby, Inc., 477 U.S. 242, 250, 106 S. Ct. 2505, 91 L.
Ed. 2d 202 (1986). The Court must make the threshold
inquiry as to whether there is a genuine issue for trial
that can be resolved by a factfinder because the issue may
reasonably be resolved in favor of either party. Id. When
the evidence can lead to but one reasonable conclusion,

96a
Appendix C
the Court must grant summary judgment as a matter
of law in favor of that evidence. Id. Here, the Court has
reviewed Mr. Eason’s deposition testimony carefully. The
Court has considered all of the evidence cited by Plaintiff
in the record and, based upon this review, concludes that
no reasonable juror find that a conspiracy existed between
Plaintiff’s union and Defendants. Accordingly, Defendants’
Motion for Summary judgment is granted as to Plaintiff’s
Count II.
C. Plaintiff’s Count III, Count IV, and Count V —
Constitutional Challenges
Plaintiff has alleged three counts challenging the
constitutionality of FAU’s Conflict of Interest Policy:
Count III (styled as a facial challenge), Count IV (styled
as an “as-applied” challenge), and Count V (styled as
a request for a declaratory judgment). The premise of
Plaintiff’s claims is that the Policy is unconstitutionally
vague. Defendants argue that summary judgment must
be entered in their favor as to these counts because the
Policy is not positive law—that is, it is not an enactment of
a state, local, or federal government. Instead, Defendants
argue that the Policy is part of the collective bargaining
agreement between FAU and its faculty. Plaintiff provides
no authority to this Court that the terms of the Policy may
be challenged constitutionally in the same manner that
positive law may be challenged. Instead, Plaintiff merely
cites to unremarkable cases in which positive law has been
challenged. By contrast, Defendants cite to persuasive
authority for the proposition that the constitutionality of the
Policy cannot be challenged on the record before the Court.

97a
Appendix C
Defendants cite to Hawks v. City of Pontiac, 874 F.2d
347, 349 (6th Cir. 1989). In Hawks, the plaintiff was an
employee of a police department. Id. at 348. The plaintiff
moved his residence out of the city in which he worked. Id.
The plaintiff’s collective bargaining agreement required
police officers to maintain residency in the city and, as a
result of the plaintiff’s decision to move his residence, he
was demoted. Id. at 348-49. The plaintiff challenged the
residency requirement as being unconstitutionally vague.
Id. The district court in Hawks granted summary judgment
in favor of the defendant by concluding that the contractual
provision could not be challenged as unconstitutionally
vague in the same manner as positive law. Id. The
appellate court affirmed, finding: “As a contract provision
entered into through voluntary collective bargaining, it
may not be characterized as a positive law subject to due
process challenge for vagueness. Its interpretation and
clarification is subject to the grievance and arbitration
process.” Id.
Notably, the plaintiff in Hawks had a stronger basis
to argue that his collective bargaining agreement terms
were subject to a constitutional challenge than the Plaintiff
in the instant case. In Hawks, the plaintiff argued that
the residency requirement originated from the city’s
charter, and had only been incorporated into his collective
bargaining agreement. Id. at 349. The Hawks court
rejected that argument, and no such nuance exists in the
instant case. In his Response, Plaintiff only acknowledges
Hawks a single time. DE 275 at 4-5. Plaintiff argues that
Hawks is distinguishable because in Hawks the plaintiff
“ha[d] not demonstrated that procedures used in the past

98a
Appendix C
would be futile.” Id. Plaintiff argues that the holding in
Hawks should not apply to his case because, if he had
grieved, his grievance would have been futile. The Court
does not agree.
Here, Plaintiff alleges that the terms of the Policy
are “overbroad and vague . . . do[] not serve a significant
governmental interest . . . [and are] so vague and overbroad,
persons of common intelligence must necessarily guess
at its meaning and differ as to its application.” DE 93 at
44. If Plaintiff had challenged the vagueness of the Policy
by filing a grievance, the Court would have the benefit
of evaluating the official rationale, purpose, and scope
of the Policy through that grievance procedure—the
plaintiff in Hawks complied with his grievance procedures
and the court had the benefit of the underlying record. 8
Regardless of Plaintiff’s reasons for failing to grieve,
that fact remains that Plaintiff did not file a grievance. A
grievance was required. DE 243-1 at 134-36; see generally
DE 246-6. While Plaintiff may have subjectively believed
that his desired outcome would have been a futile goal if
he grieved, the grievance procedure would have enabled
the Court to evaluate FAU’s implementation of the scope,
purpose, and terms of the Policy.
On this issue, Plaintiff conflates the relief he seeks.
Plaintiff ’s contention that he was advised that his
employment situation was not grievable (DE 275 at 6)
8. The Hawks court analyzed the administrative record and
determined that there was no basis to overturn the result of the
plaintiff’s administrative proceedings and grievance process. Hawks,
874 F.2d at 350.

99a
Appendix C
is not germane to the relief Plaintiff seeks through his
vagueness challenges. Plaintiff seeks a declaration that
the terms of the Policy are unconstitutionally vague.
Any such declaration by the Court would have a farreaching impact beyond Plaintiff’s individual employment
circumstances and would be directly tied to the wording
and implementation of the Policy generally. Plaintiff has
not shown or cited any evidence to this Court that it
would have been futile to file a grievance to establish the
rationale, purpose, and scope of the Policy.
For the foregoing reasons,9 Defendants’ Motion for
Summary Judgment is granted as to Count III, Count
IV, and Count V and Plaintiff’s Motion for Summary
Judgment is denied as to the same.
D. Plaintiff’s Count VI — Breach of Contract
Plaintiff’s final count, Count VI, is a breach of contract
claim against Defendant FAU. Plaintiff alleges that he
was wrongfully terminated pursuant to his collective
bargaining agreement. Defendants argue they are entitled
to summary judgment as to Count VI because Plaintiff did
not file a grievance. Mason v. Continental Grp., Inc., 763
F.2d 1219, 1222 (11th Cir. 1222) (“Employees claiming a
breach of a collective bargaining agreement or wrongful
termination of employment by their employer are bound by
that agreement’s terms providing a method for resolving
9. The Court also accepts and adopts Defendant’s ripeness
argument—that Plaintiff’s First Amendment rights were never
constrained by the Policy—as to Count IV without comment. See
DE 245 at 6.

100a
Appendix C
disputes between them and their employer.”). Plaintiff
only response is that his grievance would have been futile
and that he was advised not to grieve.
Plaintiff relies on Artz ex rel. Artz v. City of Tampa,
102 So. 3d 747 (Fla. Dist. Ct. App. 2012) in support of his
argument that the grievance process would have been
futile. Artz is distinguishable. In Artz, administrative
proceedings were exhausted by some parties—the only
question before the court was whether other parties would
be required to undergo the same proceeding for what was
expected to be the same result. Id. at 751. Plaintiff relies
upon one other case, N.B. by D.G. v. Alachua County
School Board, 84 F.3d 1376 (11th Cir. 1996), but in that case
the appellate court rejected every argument the appellant
raised to establish that exhaustion would be futile. The
law requires Plaintiff’s exhaustion of administrative
remedies: “It would be a strange doctrine indeed under
which an employee could relieve himself of engaging in
the grievance process merely by supinely accepting an
adverse decision of his employer as unchallengeable until
the filing of an action in court. Such a rule would render
the exhaustion principle itself entirely meaningless.” City
of Miami v. Fraternal Order of Police Lodge No. 20, 378
So. 2d 20, 25 (Fla. Dist. Ct. App. 1979). Furthermore,
the grievance process Plaintiff was required to follow
ultimately allowed for adjudication by an independent
arbitrator—Plaintiff has provided no argument or
evidence that an independent arbitrator would have been
biased against him. See DE 246-6 at 138. Plaintiff has not
shown that his act of filing a grievance would have been
so futile that he was relieved of the requirement to do so
by law.

101a
Appendix C
Plaintiff also argues that he was advised by his legal
counsel (and possibly by counsel for a Defendant) that
he could “always challenge in court adverse employment
actions that affect statutorily or constitutionally
protected rights.” DE 275 at 4 (emphasis added). Even if
Plaintiff’s argument possessed some legal significance10
and even if Plaintiff was so advised, there is nothing
incompatible with the advice Plaintiff received and the
Court’s rulings herein—Plaintiff’s claim for the violation
of his First Amendment rights, Count I, shall proceed to
the jury. Plaintiff’s contractual claim, Count VI, is another
matter, however, and for all of the foregoing reasons the
Court grants Defendants’ Motion for Summary Judgment
as to Count VI and denies Plaintiff’s Motion for Summary
Judgment as to the same.
E. Arguments Specific to the Individual Defendants
Defendants argue that the three individual Defendants
in this case—Kelly, Alperin, and Coltman—are entitled to
summary judgment. Defendant Kelly argues that he had
no involvement with Plaintiff’s termination. Defendants
Alperin and Coltman argue that they only disciplined
Plaintiff based upon his willful insubordination and
refusal to comply with FAU’s disclosure Policy and, as a
result, they are both entitled to qualified immunity.

10. The Court rejects any contention that Defendants should
be estopped from arguing that Plaintiff failed to grieve.

102a
Appendix C
Defendant Kelly
Defendant Kelly has cited evidence that he had no
involvement in the events in this case. Defendant Kelly
is the President of FAU. DE 243 at 1. As such, he has
delegated his duty to discipline and terminate faculty
to an FAU Provost who in turn delegated the duty to
a Vice Provost—Defendant Alperin. Id. Supervisory
officials are not liable under section 1983 claims on the
basis of respondeat superior or vicarious liability. Keith
v. DeKalb Cnty., Ga., 749 F.3d 1034, 1047-48 (11th Cir.
2014). Instead, for a supervisor to be liable in his individual
capacity the supervisor must either directly participate
in unconstitutional conduct or there must be a causal
connection between the actions of the supervisor and the
alleged constitutional deprivation. Cottone v. Jenne, 326
F.3d 1352, 1360 (11th Cir. 2003). “The standard by which a
supervisor is held liable in [his] individual capacity for the
actions of a subordinate is extremely rigorous.” Braddy
v. Fla. Dep’t of Labor, 133 F.3d 797, 802 (11th Cir. 1998).
Plaintiff argues that Defendant Kelly is personally
liable due to his personal involvement in this case because
he admitted at his deposition that he has the “ultimate
responsibility” for the termination of faculty members
and that he “monitored the fallout” from Plaintiff’s
termination. See DE 273 at 3-4. That is precisely the
kind of vicarious liability that the Eleventh Circuit has
repeatedly held is insufficient as a matter of law. See,
e.g., Keith, 749 F.3d at 1047-48. Plaintiff also argues that
Defendant Kelly was personally involved in the events of
this case because he sent an e-mail pertaining to Plaintiff

103a
Appendix C
in which he said he intended to “deal with this personally.”
DE 273 at 4. That contention is frivolous. The e-mail and
the record, reviewed in context, reveals that Defendant
Kelly (i) was expressing his desire to communicate to the
parents of a deceased child from the Sandy Hook massacre
(who had called FAU to complain) personally and (ii) that
he never actually spoke with the parents:
Q: When you say, “Please ask Mr. Stern — for
Mr. Stern to put the parents of the child in
direct contact with me, I intend to deal with this
personally,” what do you mean by that?
A: Frequently when someone has lost a child,
if they -- if they lose a child who is here at the
university, I write them a letter; and then if it’s
a university student, I also give a scholarship in
their name, just a letter of condolence and how
sorry I am for what happened and their loss.
And I felt compelled -- the same thing with this
-- this letter, that I’d like to send a letter just
saying how sorry I am he lost a child.
Q: What about Mr. Stern’s communication, on
December 11th, compelled you to respond?
A: Just — I’ve lost a child before and I know
the pain, and so when I read about a lost child,
I felt like I should respond as a spokesperson
for the university that I was sorry. I never did
though, I never did write the letter.

104a
Appendix C
Q: Is there a reason why not?
A: I g uess I just decided that it wasn’t
something maybe the family wanted to have
hashed up again.
Q: Did you ever speak to Mr. Stern?
A: No.
Q: Did you ever speak to the individual that
Mr. Stern’s referring to whose daughter lost
their life?
A: No.
Q: What was the result of your request to Stacy
Volnick?
A: There was no follow-up, further information,
nothing else happened.
DE at 243-1 at 344; DE 243-2 at 89-90. Plaintiff has no
evidence that Defendant Kelly directly participated in
Plaintiff’s termination or was otherwise casually involved
and, at the very least, Plaintiff has no evidence upon which
a reasonable juror could rely to meet the “extremely
rigorous” standard necessary to impose supervisor
liability on Defendant Kelly. The Court grants Defendant
Kelly’s Motion for Summary Judgment.

105a
Appendix C
Defendants Alperin and Coltman
Unlike Defendant Kelly, Defendants Alperin and
Coltman admit that they were personally involved with
Plaintiff’s termination. See DE 243. Both Defendants
argue that they cannot be held personally liable in this
case because they, acting in their undisputed capacity
as university officials, are entitled to qualified immunity
through their decision to terminate Plaintiff for his
willful refusal to comply with FAU’s disclosure Policy.
This issue is intertwined with the central issue of this
case: “Why was Plaintiff terminated?” The Court has
already analyzed this issue at length and has concluded
that a question of material fact exists as to why Plaintiff
was terminated.
The mere fact that an issue of material fact exists,
however, is not dispositive of a qualified immunity analysis.
Defendants cite to Sherrod v. Johnson, 667 F.3d 1359 (11th
Cir. 2012). In Sherrod, a plaintiff school teacher sued a
defendant school board. Id. at 1361. The plaintiff alleged
that he had been terminated because of his exercise of his
First Amendment right to criticize the school board on
matters of public concern through letters and appearances
at board meetings. Id. The defendant cited evidence
that the plaintiff had deviated from school curriculum
standards and that he had been subject to multiple
parental complaints for his teaching style. Id. On summary
judgment, the district court determined that there was a
question of material fact as to why the plaintiff had been
terminated. Id. at 1363. Specifically, the district court
determined that there was an issue of material fact as to

106a
Appendix C
whether the defendant’s non-discriminatory reasons for
termination were pretextual. Id. Because of that dispute
of material fact, the district court denied the individual
defendants qualified immunity as a matter of law. Id. The
Eleventh Circuit reversed, finding that qualified immunity
did not turn on whether there was a material fact as to
why the plaintiff had been terminated. Id. Instead:
A proper analysis of [the individual defendants’]
entitlement to qualified immunity is not
whether they knew that terminating [plaintiff]
in retaliation for protected speech was lawful,
but rather whether terminating him based
upon all the information available to them
at the time, to include any knowledge of his
protected speech, was objectively reasonable.
In Foy, we noted that the presence of a jury
issue about a defendant’s improper intent does
not necessarily preclude qualified immunity.
Foy, 94 F.3d at 1533. We explained that
“[w]here the facts assumed for summary
judgment purposes in a case involving qualified
immunity show mixed motives (lawful and
unlawful motivations) and preexisting law does
not dictate that the merits of the case must be
decided in plaintiff’s favor, the defendant is
entitled to immunity.”
Id. at 1535 (emphasis added).
Sherrod is both analogous and binding on this Court.
This is a mixed motives case, with both lawful and

107a
Appendix C
unlawful motivations at issue. While Plaintiff may facially
dispute whether he complied with Defendants’ Policy,
a close examination of Plaintiff’s evidence reveals that
there is no material dispute that (i) the Policy existed, (ii)
FAU’s administration of the Policy required Plaintiff to
undertake certain actions, (iii) Plaintiff willfully did not
comply with the specifics of what FAU required despite
advice to the contrary and (iv) if Plaintiff ever attempted
to fully comply with the Policy (as administered by FAU),
his attempt was not timely. See DE 272. Viewing the
record in the light most favorable to Plaintiff, the Court
concludes that Defendants Aplerin and Coltman could
have reasonably and lawfully decided to recommend
Plaintiff’s termination, based upon how Plaintiff governed
himself after being required to comply with the Policy.
Accordingly, both Defendants are entitled to qualified
immunity. Sherrod, 667 F.3d at 1364. Defendants Alperin’s
and Coltman’s Motion for Summary Judgment is granted.11
The Court addresses one final matter. Both Plaintiff
and Defendants moved to supplement the summary
judgment record. Although the Court denied both motions,
the Court notes that the requested supplements would
not have changed the Court’s disposition of the motions.

11. Because the individual Defendants are dismissed from
this case, the Court need not consider the individual Defendants’
arguments pertaining to punitive damages and failure to mitigate.

108a
Appendix C
IV. CONCLUSION
It is therefore ORDERED AND ADJUDGED that:
1.

Plaintiff’s Motion for Partial Summary Judgment
[DE 245] is DENIED.

2.

Defendant FAU’s Motion for Summary Judgment
[DE 245] is GRANTED IN PART AND DENIED
IN PART insofar as summary judgment is
entered in Defendants’ favor as to Count II,
Count III, Count IV, Count V, and Count VI.
Count I survives for trial.

3.

The Individual Defendants’ Motion for Summary
Judgment [DE 242] is GRANTED and each
individual Defendant is dismissed from this case.

DONE and ORDERED in Chambers, Fort Pierce,
Florida, this 31st day of October, 2017.
		
		
		

/s/ Robin L. Rosenberg
ROBIN L. ROSENBERG
UNITED STATES DISTRICT JUDGE

109a
AppendixOF
D REHEARING OF
APPENDIX D — DENIAL
THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT, FILED
FEBRUARY 25, 2021
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 18-10173-GG
JAMES TRACY,
Plaintiff-Appellant,
versus
FLORIDA ATLANTIC UNIVERSITY BOARD OF
TRUSTEES, CHRISTOPHER BEETLE, JOHN W.
KELLY, HEATHER COLTMAN, DIANE ALPERIN,
FLORIDA EDUCATION ASSOCIATION, ROBERT
ZOELLER, JR., MICHAEL MOATS,
Defendants-Appellees,
ANTHONY BARBAR, et al.,
Defendants.
Appeal from the United States District Court
for the Southern District of Florida
ON P E T I T ION( S ) F OR R E H E A R I NG A N D
PETITION(S) FOR REHEARING EN BANC

110a
Appendix D
BEFORE: MARCUS, JULIE CARNES, and KELLY,*
Circuit Judges.
PER CURIAM:
The Petition for Rehearing En Banc is DENIED, no judge
in regular active service on the Court having requested
that the Court be polled on rehearing en banc. (FRAP 35)
The Petition for Panel Rehearing is also denied. (FRAP
40)

* Honorable Paul J. Kelly, Jr., United States Circuit Judge
for the Tenth Circuit, sitting bydesignation.

